Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





AREA HEALTH EDUCATION CENTERS



            A Role in Enhancing

       the Rural Practice Environment





               #J SERWCE3
           &             “0$
          -+               4




                $
         $V                    JUNE GIBBS BROWN
         :	                    Inspector General
         z
         %
           ‘+++
              %@                    MAY 1995
              >                   0EI-01-93-O0570
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                                                            Headquarters

Russell W. Hereford, Ph.D., Project Leader                                         Alan Levine
Dana L. Miller

          For additional copies of this report,please contact the Boston regionalo~e
                 /y telephone at (617) 565-1050, or by fax at (617) 565-3751.
Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





AREA HEALTH EDUCATION CENTERS



           A Role in Enhancing
      the Rural Practice Environment




         v+-’
                    “’?

        $
        u

        a
        73
         %++
           %d~~
           >
                $         JUNE GIBBS BROWN

                          Inspector General


                               MAY 1995
                             0EI-01-93-O0570
              EXECUTIVE                         SUMMARY


PURPOSE

The purpose of this inspection is to assess the role that Area Health Education
Centers play and can play in providing support services to enhance the practice
environment for health care practitioners in rural areas.

BACKGROUND

The goal of the Area Health Education Center (AHEC) program is to link health
professions education with service delivery in underserved areas by bringing together
the academic resources of a university health sciences center with local clinical
resources. The FY 1994 appropriation of $22,203,000 supports 19 basic AHEC
programs and 13 model State-supported programs. The FY 1995 appropriation is
$24,625,000.

During our background work on this inspection, we met with staff from the Division of
Medicine within the Public Health Service (PHS) to discuss an inspection focusing on
AHECS’ provision of continuing education. They expressed a desire that we broaden
the focus of our inspection. Consequently, we expanded our inquiry to include library
resources and telecommunications, and to consider ways in which AHECS could play a
lead role in helping rural health professionals practice in a changing health care
system.

Our methodology uses AHEC-reported information from four primary data sources:
(1) funding applications submitted to the Bureau of Health Professions (BHPr) from
13 AHEC programs for a 3-year period ending in 1994 and from 10 model AHEC
programs for FY 1994; (2) data on continuing education activities from all AHEC
programs, submitted to BHPr for FYs 1991-92 and 1992-93; (3) telephone interviews
with directors of 19 AHEC programs; and (4) site visits to 4 AHEC programs in 3
States, during which we met with more than 30 rural practitioners.

FINDINGS

MIEC3 are enhancing rural practitiontm’ access to health care information by linking
them with medical library rtxou.rtw.

  .	   AHEC-provided library resources include professional staff, computer
       equipment (both hardware and software) for data base searches and document
       distribution, practitioner training, and books, journals, and audio-visual tapes.

  .	   As special incentives to attract community-based faculty for their students,
       AHECS provide additional training on using data bases, free use of medical
       library resources, and computer hardware and software to access these resources.


                                            i
AHEC3 are responding to the need of many types of practitioners for continuing
education on clinical topics.

   .	    AHECS’ continuing education courses cover a wide range of topics in the health
         care field.

   �	    In developing their continuing education agendas, AHECS try to be particularly
         responsive to community-based practitioners in order to encourage their
         involvement with AHEC-affiliated students and residents.

  .	     On average, more than two-thirds of participants in AHEC-sponsored
         continuing education programs in 1993 were nonphysician practitioners,
         including nurse practitioners, physician assistants, nurses, and allied health
         professionals.

For the most pati, howeve~ AHEC3 are inking opp~              to educate practitioners
about innovatkms h health care delivery, such as cliiukal practice guideliiaes or managed
care.

   .	    Although clinical practice guidelines are intended to help practitioners make
         clinical decisions about patient care, most AHECS have not included these
         topics in their continuing education courses.

  .	     Despite the potential impact of managed care on rural practice, most AHECS
         have not included courses on this topic in their continuing education programs.

MZEC3 are beginning to use telecommunications to provide supprt to isolated
practitioruxq but they are not yet taking advantage of the jhll potential of thzk technology.

    .	   AHECS’ most common use of telecommunications is to provide additional
         education for professional advancement of local nurses. Except for this
         purpose, however, few AHECS utilize regularly scheduled telecommunications
         programming.

   �	    Constraints on greater AHEC use of telecommunications include AHECS’ lack
         of ownership of the technology, its capital and operating costs, and lack of
         practitioner familiarity or comfort.

OPPORTUNITIES:          LOOKING TO THE FUTURE

AHECS are well positioned to help practitioners address emerging issues that impact
health care delivery in rural areas.

 We recommend that the Public Health Service strengthen the role of AHEC3 by
facilitating their abi@ to fxus support services on three areas: clinical practice
guidelines+,munaged care, and telecommunicatiom.


                                               ii
�   Clinical practice guideliiaes

    AHECS could facilitate adoption of clinical practice guidelines in rural practice by:

    “ Including guidelines aspartof continuing education courses
    “ Ensuring guidelines areavailable intheir medical libraries
    o Helping adapt guidelines to rural conditions

    The PHS, working through the Agency for Health Care Policy and Research,

    could encourage guidelines’ adoption by:


    “ Involving AHECS in the development of guidelines

    “ Encouraging AHECsto disseminate guidelines

    “ Assessing rural practitioners’ concerns

    “ Examining theuseof guidelines in rural areas


�   Managed care

    AHECS could inform rural practitioners about managed care by:

    “ Sponsoring informational spposia for rural practitioners
    o Assisting practitioners in negotiating contracts
    “ Participating in State-level planning

    The PHS could assist AHECS in this effort by:

    “ Disseminating information on managed care
    o Taking advantage ofitsongoing communications with AHECs

�   Telkcommunicatins

    AHECS could lead efforts to take greater advantage of telecommunications’
    potential to facilitate rural practitioner access to information by:

    “ Actively participating in State telecommunications initiatives, such as those
           involving State offices of rural health
    - Training practitioners, students, and primary care residents

    The PHS could facilitate these efforts by:

    “ Encouraging the Federal NECProgram         andthe Federal Office of Rural
          Health Policy to work closely together
    - Considering theextent of NECcollaboration       with telecommunications
          networks in its review of funding applications




                                         .
                                         111
COMMENTS       ON THE DRAFT REPORT

We received comments on the draft report from the Public Health Service (PHS) and
the Assistant Secretary for Planning and Evaluation (ASPE) within the Department.
We also received comments from the National Organization of AHEC Program
Directors (NOAPD). We include the full text of all comments in Appendix A. Below
we summarize the comments of the respondents and, in italics, offer our responses.

PHS Comments

The PHS concurs with our recommendations.         The agency identifies a plan of action
that it will undertake to implement those recommendations.
   .    The PHS plans to convene a work group with staff from HRSA and AHCPR to
        address our recommendation on the use of clinical practice guidelines.
   .    The PHS has already established a task force within HRSA to identify steps
        that could be taken to assist its customers and constituents in responding to the
        growth of managed care throughout the nation.
   .    The PHS notes that HRSA will undertake efforts to increase interaction
        between the AHEC program and the Office of Rural Health Policy as one
        approach to strengthening development of telecommunications systems,
We appreciate the positive response from PHS, and we are encouraged by the plan of
action that the agency has adopted in response to our recommendations.

ASPE Cmmnents

The ASPE generally agrees with our recommendations, particularly those that address
clinical practice guidelines and managed care. However, ASPE suggests that we might
wish to emphasize grantee involvement in efforts to explore the use of telecommu­
nications. We agree that thk is an emeW”ng field in which a consensus has not yet been
reached on how to take ji.dl advantage of advanced technology. Howeve~ we believe that
an indication that xlHECs are exploring telecommunications     would not be sufficient for
assessing their actual involvement in that field. Lvstead, we have revised the language
suppom”ng our recommendation to emphasize that the Federal AHEC program could
consider “the extent to which AHECS are involved in linking with State ejforts to develop
telecommunications” in its rating of applicants for AHEC jimding.

NOAPD Comments

The NOAPD made a number of technical and editorial comments. The one area of
particular concern to NOAPD is our recommendation on clinical practice guidelines.
The NOAPD questions whether these guidelines are pertinent topics for continuing
education in communities where local practitioners have not requested such
information. We uge AHECS not only to take advantage of existing oppo~nities  to
educate practitioners about the information contained in these guidelines, but aho to play
a proactive role in making practitioners aware of their potential use. In addih”on, one
important thrust of our recommendation is to involve the expertise residing in AHECS to
make these guidelines more relevant and usefil to rural practitioners.


                                            iv
                     TABLE                     OF CONTENTS


                                                                                                                  PAGE
EXECUTIVE       SUMMARY


INTRODUCI’ION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS


 � Medical    Library Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


 � Continuing    Education Courses              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


 � Missed    Opportunities..          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


 . Telecommunications           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10



OPPORTUNITEW             LOOKING TO THE FUTURE

 � Strengthening      theAHECRole               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


 � Clinical Practice Guidelines             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


 � Managed      Care.     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


 . Telecommunications           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



COMMENTS        ON THE DRAIW REPORT                           . . . . . . . . . . . . . . . . . . . . . . . . . . ...17



APPENDIX

ATextof      Comments on the Draft Report                     . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1


B. AHECSupport          Services in Three States: Case Descriptions                         . . . . . . . . . . . . . B-1


CI Endnotes      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l

                          INTRODUCTION


PURPOSE

The purpose of this inspection is to assess the role that Area Health Education
Centers play and can play in providing support services to enhance the practice
environment for health care practitioners in rural areas.

BACKGROUND

  .    The Area Health Education Center Program

Recruiting and retaining health care practitioners in rural areas remains a vexing
national concern. The ‘&ea Health Education Center (AHEC) program repres&ts
one strategy that the Federal government has adopted to address this concern.1 The
goal of the AHEC program is to link health professions education with service delivery
in underserved areas by bringing together the academic resources of a university
health sciences center with local clinical resources. This linkage facilitates recruitment
and training of health professions students for work in underserved areas, and it helps
to retain health professionals practicing in those areas by enhancing the rural practice
environment through continuing professional education and support services.

The primary mission of AHECS is to support training for medical students and
medical residents. Under the Federal program, funding is provided directly to an
AHEC project, a cooperative arrangement that operates through a medical school.
The AHEC project oversees an effort encompassing multiple AHEC centers at sites
remote from the medical school. Each AHEC must maintain preceptorship
educational experiences for health sciences students. At least 10 percent of all
undergraduate medical clinical education must be conducted in an AHEC or in
AHEC-sponsored sites. AHECS must also maintain or be affiliated with primary care
residency programs for a minimum of four residents in each year. Each AHEC
project must be responsible for a program for training physician assistants or nurse
practitioners, and for at least two programs involving other health professions, such as
dentistry or mental health practice.

The Federal government has supported the AHEC effort since 1971. The Federal
AHEC Program is operated by the Division of Medicine in the Bureau of Health
Professions (BHPr), Health Resources and Services Administration (HRSA), within
the Public Health Service (PHS). The FY 1994 appropriation of $22,203,000 supports
19 AHEC projects under the basic program and 13 projects funded under a new
model State-supported AHEC program that includes at least a 50 percent State
match.2 The FY 1995 appropriation is $24,625,000. More than 100 AHEC centers
now operate, including both those that are supported currently with Federal funding
and those that have graduated from Federal AHEC support and rely on State funding.
Since the Federal program’s inception in 1971, AHECS have operated in 35 States.


                                            1
    The Federal government also supports other efforts to encourage the development of
    health delivery capacity in rural areas. One such effort is HRSA’S Federal Office of
    Rural Health Policy (ORHP). The ORHPprovides funding forinditidual State offices
    of rural health and funds a Rural Health Outreach Grant program that supports
    innovative strategies for delivering health care in rural areas, such as mobile clinics for
    prenatal care and development of telecommunications systems.

      �    The Role of Support Services in Enhancing the Rural Practice Environment

    In this inspection, we use the term support services to describe three types of
    activities:

      �	   Medical Iiirary resources that provide rural practitioners   with access to
           journals, data bases, and document delivery services.

      F	   Continuing education courses that share clinical information with community-
           based practitioners (such as updates on new diseases and treatments); that
           assist practitioners to provide care in a changing practice environment (such as
           skills needed to practice in a managed care setting); and that enhance the
           educational process of health professions students (such as courses to improve
           community-based practitioners’ ability to be preceptors for medical students).

      F	   Telecommunications technologies that link rural practitioners    with clinical
           resources, such as those available at the academic health center. These
           interactions include computer-based information exchange to foster consultation
           and long distance educational courses for isolated practitioners.

    These support services are only one facet of AHECS’ responsibilities. Other important
    AHEC activities include educating medical and other health professional students,
    maintaining primary care residency programs, and carrying out recruitment programs
    for the health science professions among minority elementary and secondary school
    students from medically underserved areas.

    AHECS use these support services for two basic purposes. First, they seek to enhance
    the knowledge base and skills of community-based practitioners by providing
    information that will be useful in the local setting, in response to the needs of those
    practitioners. Second, AHECS use support services to help recruit community-based
    practitioners who teach AHEC-sponsored health professions students and residents.
    AHECS consider their principal overall mission to be basic education of health
    professionals. Recruiting and retaining high quality preceptors and faculty in
    community-based settings is an ongoing task for AHECS. By focusing their support
    services on these faculty and affiliated staff in their practice settings, AHECS are able
    to provide some additional benefit to these faculty, many of whom practice in isolated
    or other underserved areas.




                                                 2



—
Despite medical education programs such as AHEC, initial practitioner training and
recruitment appear to be only partial solutions to assuring their ongoing availability in
rural areas. A 1994 study by the General Accounting Office states that although the
number of primary care physicians providing patient care rose 75 percent between
1975 and 1990, “the increased supply did not improve--and even slightly exacerbated-­
the uneven distribution between urban and rural areas that already exists.”3 The
Congressional Office of Technology Assessment (OTA) notes, “health professionals
may be dissuaded from choosing a rural practice location due to either a perceived or
an actual lack of professional opportunities and benefits [such as] opportunities for
career advancement and ability to meet continuing education requirements for
recertification.”4

The OTA captured the implications of this problem when it noted that “rural primary
care physicians may infrequently treat many conditions, and rural technical personnel
may find it difficult to maintain competence in skills they rarely practice. . . . Many
rural health professionals do not have easy access to professional colleagues,
consultations and second opinions, medical libraries, or continuing education.”s

Because of their link between health sciences centers and community practitioners,
AHECS are in a unique position to provide ongoing support services to rural
practitioners. The director of one AHEC summarized this task when he noted,
“AHECS should examine their current models of support for life-long learning. Models
that bring relevant, timely information closer to the userh point of need should receive
priority attention. AHECS are ideally positioned to address the need for individualized
learning and self-directed inquiry. Such information delivery systems could become
the foremost criteria by which AHECS will be judged in the years ahead.”b

FOCUS OF THIS STUDY

During our background work on this inspection, we met with staff from the Division of

Medicine to discuss an inspection focusing on AHECS’ provision of continuing

education services. The PHS staff expressed a desire that we broaden our inspection

beyond continuing education, Consequently, we expanded our inquiry to include

library resources and telecommunications services, and to consider ways in which

AHECS could play a lead role in helping rural health professionals practice in a

changing health care system.


This inspection assesses support services provided by all AHECS, both those receiving

current Federal AHEC support and those not receiving such support. Consequently,

we do not intend for this study to report on the use of Federal AHEC funds only.

Even among those AHECS that currently receive Federal AHEC funds, this support

may comprise only a small portion of their budgets. Other AHECS are no longer

dependent at all on Federal funding.





                                            3

METHODOLOGY

our methodology relies upon AHEC-reported       information, drawn from four primary
sources:

1) We reviewed funding applications submitted to BHPr for 13 AHEC programs for a
3-year period ending in 1994. Each application included reports on AHEC activities
for the prior year. We also reviewed applications for funding from 10 model AHEC
programs submitted in FY 1994.

2) We analyzed data on continuing education activities from all AHEC programs that
had been submitted to BHPr for FYs 1991-92 and 1992-93.

3) We conducted telephone interviews with directors and/or staff from 19 AHEC
programs.

4) We conducted site visits to four AHEC programs in three States. Each site visit
included discussions with staff and practitioners at the AHEC program and at AHEC
centers. During these site visits, we met with more than 30 rural practitioners, in
addition to AHEC staff members, We selected these sites based on our review of the
AHEC program files and discussion with staff from the AHEC Program Office in
HRSA. We chose programs that had been operating for at least three years. In
Appendix B we describe the support services of these AHECS in detail. These sites
were:

      Arkansas AHEC Program, University of Arkansas for Medical Science, Little
      Rock, Pine Bluff AHEC Center, and Fayetteville AHEC Center;

      South Texas AHEC Program, University of Texas Health Science Center, San
      Antonio, and Lower Rio Grande Valley AHEC Center, Weslaco;

       Nova Southeastern University AHEC Program, North Miami, and Central
       Florida AHEC Center, Apopka; and

       North Florida AHEC Program, University of Florida Medical School,
       Gainesville, and Big Bend-AHEC Center; Tallahassee.

We conducted this study in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           4

                                 FINDINGS


&IECS ARE ENHANCINGRURAL PRACITI’IONERS’ACCESS’10 HEALTH CARE
INFORMATIONBY LINKINGTHEM WITH MEDICALLIBRARYRESOURCES.

  .   xlIZEGprovided fibraty resources incliuk professional stafi com~er equipment
      (both hardware and software) for data base seadws and documem diwributioq
      practitioner training and books, joumdr, and audw-til       tapex

AHECS make available a sophisticated array of library services to rural practitioners,
including books, journals, and videotapes. In our review of applications for Federal
AHEC program funding, interviews with AHEC program directors, and site visits to
AHEC programs we found that AHECS have put substantial commitment into
facilitating practitioner access to medical library resources. These efforts have
expanded the range of materials and information available to isolated practitioners.

By virtue of their relationship with academic health sciences centers, AHECS have
access to the full range of medical collections that are available in these teaching
settings. In addition, AHECS have undertaken major commitments to link
practitioners with other resources, such as computerized literature and data bases. In
late 1994, HRSAS National AHEC Program Office surveyed the 32 AHEC programs
that receive Federal funds. The survey found that all the programs are utilizing
Internet and National Library of Medicine (NLM) telecommunications resources.
Each AHEC utilizes the NLM’s Grateful Med program (for medical literature
searching) and Loansome Doc program (for document distribution). Most AHECS
also access other data bases such as CINAHL (Cumulative Index on Nursing and
Allied Health Literature), either via computer modem-based searches or periodic
updates on CD-ROM disks. Eighteen AHECS are linked with AHECNet, a system
established by the Montana AHEC. Some AHECS also use methods that are less
high-tech in nature, such as distributing journal tables of contents to practitioners, and
photocopying articles in response to requests.

In addition to searching for and distributing literature to practitioners, AHECS put
substantial effort into training practitioners about how to use the library resources that
are available. This training takes place through on-site instruction, for example, in a
local hospital. Some AHECS use a “circuit riding librarian,” who visits physicians’
offices, clinics, hospitals, and other practice sites, actively marketing the AHEC’S
library services. The circuit rider trains practitioners on how to use services such as
Grateful Meal, but also performs searches on site for the practitioners.




                                             5

      �	   As special incentives to attract cornmunity-based faculiy for their studknts, AHEC3
           providk additional training on using dhta bases, Pee use of medical libra~
           resoumeq and computer hurdware and software to access these resources.

    AHECS use library training strategies to help strengthen their ties with preceptors.

    AHEC students and residents take equipment--computers, modems, and software-­

    with them on their rotations in the field where they use them as part of their ongoing

    work with practitioners. One AHEC director summarized this approach by noting that

    “Our students at a rural rotation dial in, do a work up, and search on-line for

    information, so that they can illustrate for themselves and for their preceptors how

    these systems work. We structure this to make it part of the learning process.”


    In addition to providing free data base searches and access to documents, some

    AHECS purchase and donate equipment to practitioners who serve as preceptors.

    AHEC staff we interviewed told us that providing this equipment is important for

    rural practitioners. They noted that most rural practitioners have computers and

    modems in their offices, but that they use them almost exclusively for billing.

    Consequently, placing computer systems in these preceptors’ offices meets both an

    educational need for students and provides access to library services for the

    practitioners.


    Library services can also be valuable resources for AHECS in enhancing their

    relationships with their parent institution. One AHEC director’s comments

    summarized how “these services constitute a win-win relationship. Making library

    services available is part of the marketing strategy of any health sciences center. They

    use it to build up the referral network for the hospital. AHEC enhances this

    approach for the medical center, because we get out into the rural community more.

    AHEC’S marketing goal is to have practitioners take students, and we use library

    services to help reach that goal.”


    &IECS ARE RESPONDINGTO THE NEEDS OF MANYTYPES OF PRACITI’IONERSFOR

    CONTINUINGEDUCATIONON CLINICALTOPICS.


      �	   AIECk’ conthuu!ngeducation courses cover a wide range of topics in the health
           care field

    Drawing primarily on our review of funding applications, but also on our site visits, it
    is clear that the preponderance of courses are clinical in nature.7 Examples of topics
    that appear frequently in the lists include: issues related to HIV infection; emergency
    care, cardio-pulmonary resuscitation, and cardiac life support; identification and
    treatment of substance abuse; identification of domestic abuse; prenatal and perinatal
    care; and management of chronic diseases such as diabetes and asthma. Some
    AHECS also provide continuing education courses on social issues (e.g., cultural
    sensitivity, language training), management (e.g., quality assurance and risk
    management), and human resources (e.g., avoiding burnout).



                                                 6



—
The AHECS generally view their role in continuing education as meeting specific
needs and filling a void left by other sources of continuing education. Most continuing
education programming is provided through formal courses. Courses may be provided
in large scale settings (e.g., cosponsorship of a statewide conference on rural health),
in a particular geographic area, or for a small group of eight to ten staff members at
one rural health clinic. In addition to courses, several AHECS sponsor mini-
residencies or fellowships at the health sciences center in response to an individual
physician’s need for special training on a particular subject. Some AHECS also
conduct specialty clinics in rural communities; at these clinics, a specialist from the
health sciences center sees patients, while also providing training for local
practitioners.

  .	   In developing their continuing education agend2q xlIZECk hy to be particular+
       responsive to community-based practitioners in order to encourage their
       involvement ~“th AHEC-a~iated students and resklenfi.

Our interviews and site visits showed that AHECS use several basic strategies to

identify practitioners’ continuing education needs. Some AHECS convene advisory

boards comprised of local practitioners and staff from health care facilities; other

AHECS conduct written needs assessments of local practitioners. Less structured

methods of seeking provider input include ongoing contacts with practitioners, and

course evaluations from practitioners who have attended continuing education classes.


AHECS reported making special efforts to solicit ideas for continuing education

programs from faculty and staff in those settings in which students and residents are

placed. These efforts can meet practitioners’ needs for continuing education, while

also providing basic education for the students.


We identified six strategies that AHECS have adopted toward this end. First, AHECS

take programs to the practice setting, so that all the staff can participate. Second, an

AHEC may use its preceptors as the sampling frame for needs assessments surveys.


Third, some AHECS have developed special courses to train their preceptors on

clinical issues, but also, importantly, on how to be effective teachers and mentors.g

Fourth, AHECS offer “noon courses” as part of their primary care residency training.

On a regular schedule--daily in some programs, weekly or biweekly in others-­

practicing physicians from the clinic or local area provide lectures for residents and

other staff. Although these programs are targeted at the residents, other local

practitioners are invited, as a way of facilitating professional interaction and learning.


Fifth, some AHECS provide “dividends” or credit to preceptors. These preceptors may

exchange these dividends for free registration at AHEC programs. Finally, AHECS

encourage practitioners to view teaching as an important means of receiving

continuing education. One physician at a community health center explains how this

works: “It is stimulating at all levels of the profession. Students force you to push

yourself, because they are up on the latest literature and research. It also gives



                                              7
providers in an underserved community a sense of credentialing and their own worth,
as they can think, ‘If I’m a teacher I must be good.’”

  .	   On average more than two-thin&of parh”cipantsin AHEC-sponsored continuing
       education pmgrarns in 1993 were nonphysician practitioners, including muse
       practitkmag physician assktan~, numes, and allkd health prcfewionalr.

Even though AHECS are based in medical schools, nonphysician practitioners make
particular use of their continuing education programs. We reviewed data submitted by
19 AHECS to BHPr for fiscal year 1993. In 14 of these 19 AHECS, physicians
comprised less than 25 percent of participants, and in 9 of these AHECS they
comprised 10 percent or less. In 14 of those 19 AHECS, nurses, nurse practitioners,
and physician assistants--who often are direct providers of primary care services in
rural areas--comprised more than 25 percent of participants. Other participants in
these programs include dentists, pharmacists, and allied health professionals such as
medical technologists, x-ray technicians, and medical records administrators.

AHECS fill a niche in providing continuing education programming for nonphysician
health care professionals. Of particular benefit, this programming can focus on the
specific needs of staff in an individual clinic or practice site in a rural area. Because
of the AHEC’S flexibility, it can design continuing education that may not be readily
available elsewhere for these practitioners.

We heard four additional explanations for this level of participation by nonphysician
practitioners, First, rural practice sites tend to be multidisciplinary, with a team
orientation that includes nurses, physicians, and allied health professionals. As a
consequence, rural practitioners’ continuing education needs also are multidisciplinary.

Second, rural sites need continuing education that is locally provided. One physician
summarized this need when she told us, “Clinic staff are place-bound. A nurse may be
the only one in the rural clinic, and she can’t get away. You simply can’t shut down a
small county health unit for a day to go to a meeting.”

Third, an obvious reason for this level of participation is that nurses and allied health
professionals comprise the largest proportion of health professionals. Consequently,
they would be expected to consume a greater share of continuing education. Fourth,
although continuing education is widely provided elsewhere for physicians, it often is
unavailable for many rural nonphysician practitioners.




                                             8

FOR THE MOST PART, AHECS ARE MISSINGOPPORTUNITIESTO EDUCATE
PRACTTI’IONERSABOUT INNOVATIONSIN HEALTH CARE DELIVERY, SUCH AS
CLINICALPRACI’ICEGUIDELINESOR MANAGEDCARE.

  .	   AMough clinical practice guidelines are intended to help practklmtm make
       cEnical &&ns      about patient car% most AHEC3 have not included these topics
       in their continuing ed4cation courses.

In our review of applications, interviews, and site visits, we sought specific information
on whether AHECS have provided continuing education on the use of clinical practice
guidelines developed by the Agency for Health Care Policy and Research (AHCPR).9

No AHEC mentioned in its application that it had been involved in dissemination of
guidelines. Of our 19 interviews, 2 AHEC directors told us that they had disseminated
practice guidelines. One director told us that the AHEC had sent HIV guidelines to
“hundreds of people through their AIDS Clinical Newsletter,” saying that “AHECS are
a natural entity to do this.” The director of another AHEC told us that practice
guidelines are frequently presented as part of their continuing education programs,
and he expects that these will be even more commonly used in future programs.
Several other AHEC directors told us that the guidelines are available in their medical
library collections. As one AHEC director summarized, however, “We get the
information from AHCPR, but haven’t done much with it. I’m not sure why.”

On our site visits, staff from the South Texas AHEC told us that although continuing
education courses for physicians have not explicitly addressed AHCPR guidelines, the
school of nursing had used pain management guidelines in their continuing education
program. The Arkansas AHEC conducted a study to examine different methods of
disseminating asthma practice guidelines through AHECS. The project report
concludes that “AHECS are in a position to play an important dissemination role.
Continuing education has always been a priority. ., . and as such [AHECS] can serve
as an effective dissemination vehicle.”lo

During our site visits, rural practitioners raised a number of questions about practice
guidelines and the constraints that rural practice imposes on their applicability. One
difficulty they identified was a perceived need for sophisticated diagnostic equipment
that might not be available in rural areas. Other practitioners identified lengthy travel
time in rural areas as a barrier to following what they see as rigid guidelines. They
also expressed frustration that practice guidelines are developed by academic experts
who do not understand the constraints on the practice of medicine in rural areas.

Yet practitioners we spoke with thought that there was a need for this information,
perhaps best expressed by the medical director of a community health center in
Florida. “Traditional performance is based on quality assurance. Insurers now have
measurement criteria--numbers of immunizations or pregnant teenagers seen in first
trimester. We need to be able to move to statistically sound outcome based practice.



                                             9

AHEC can help provide the expertise, software, education on how to do this, and on
how we can hook in with CQI,”

  .	   Despite the potential impact of managed care on mral practice, most xlHEC3 have
       not included couzws on thh topic in their continuing education programs.

In our interviews and site visits, we asked AHEC directors specifically about whether
they had sponsored programs to educate practitioners about managed care. Four of
the 19 AHEC directors we interviewed told us that their AHEC had provided some
typeofeducational programming on managed care. During our site visits, we were
told that the Florida AHEC programs sponsored a 2-day statewide program on
contracting with Medicaid managed care providers.

Only one AHEC director told us that managed care comprised an important part of
continuing education programs. The AHEC responded to physician requests for
information on how to practice as a gatekeeper and how to form managed care
organizations. A second AHEC director noted that a few of their offerings had begun
to address managed care. Two AHEC directors stated that they had been involved
with setting up public hearings as part of State efforts to educate providers about
Medicaid initiatives that were encouraging managed care organizations.11

Even though they have not provided continuing education on managed care, several
AHEC directors cited concerns about the impact that managed care could have on
their own operations. Foremost among their concerns was whether managed care,
with greater demands for physician productivity, would leave community-based
physicians with less time for teaching students,

Rural practitioners we interviewed during our site visits also indicated the need for
information on how managed care will affect their practice. They cited, for example,
AHECS’ experience in negotiating with physicians, which could be helpful as rural
practitioners consider and review provider agreements. One director of a county
health department summarized these views when he said, “Rural health providers
know nothing about contracting with providers and physicians. We need courses on
how to work with HMOS as government providers, and how to work with them as
private practitioners.”

AHECS ARE BEGINNINGTO USE TELECOMMUNICATIONSTO PROVIDE SUPPORT TO
ISOLATEDPRACITI’IONERS,BUT THEY ARE NOT YET TAKINGADVANTAGEOF THE
FULL POTENTIALOF THIS TECHNOLOGY.

  �	   AHEC# nwst common use of tekcommunications k to provide additional
       education forprof&nal   advancement of local numes. Ercept for this purpose,
       howeve~ few AHECs utilize regularly scheduled telecommun ications programming.

In our review of funding applications, interviews with AHEC program directors, and
site visits, 10 AHECS reported that they have a career ladder program to enable


                                          10
nurses to advance professionally. 12 The classroom portion of their training is
provided through a long distance interactive format by faculty from the school of
nursing at the health sciences center. The classroom expands beyond the immediate
four walls, as lectures are transmitted live to students in a classroom at a remote site,
such as a community college or local AHEC center. Using video-audio systems,
students in the remote site are able to interact with the instructor in virtually the same
way as those in the immediate classroom. The hands-on clinical training that the
students require takes place in a local setting, such as a rural hospital or clinic. This
approach helps the distant students by letting them remain in their communities while
advancing professionally. It also can be an important retention tool. Several AHEC
directors with whom we spoke noted that hospitals spent a great deal of money
recruiting nurses from more urban areas to rural areas, only to find that they tend to
leave after a relatively short time. By providing training for local nurses, AHECS
expect that they will upgrade their skill level and ability to take on more responsibility,
and will remain in the local area after completing their training.

Other than these career ladder courses, AHECS’ use of telecommunications is in the
early stages. Few AHECS use telecommunications to deliver regularly scheduled
routine continuing education courses. A more common use of this technology is local
coordination for special national or State programs on major topics, such as AIDS
awareness and treatment.

For the most part, AHECS’ use of long distance telemedicine--clinical diagnosis and
treatment through telecommunications--is still in the demonstration phase. Some
AHECS reported that they were facilitating the use of teleradiology. This technology
permits practitioners at rural hospitals to send digitized x-rays via telecommunications
to a contracted radiologist at a central location, such as the health sciences center.
The radiologist interprets the x-rays and provides a diagnosis for the rural practitioner.
A few AHECS reported that they use telemedicine for dermatology. A local
practitioner (such as a physician, physician assistant, or nurse practitioner) sees the
patient at a remote site, while a dermatologist at the health sciences center examines
the patient via specially transmitted televised pictures. The specialist is able to
diagnose the condition and prescribe appropriate treatment. If hands-on contact is
needed, the local practitioner can provide that contact in conjunction with the
specialist’s instructions.

Because it can be brought on site, telecommunications obviates the need for
practitioner travel to distant sites for continuing education and other training. This
technology can address the time constraints facing busy professionals, and can be
provided at a relatively affordable cost in many areas. By linking practitioners with
resources available from great distances, telecommunications can readily expand the
range of course offerings beyond what is available locally.

It is not clear how rapidly telemedicine will expand, or indeed whether it will expand
at all without additional funding. AHEC directors in a number of States reported to
us about plans to implement limited demonstrations that utilize telemedicine. In most


                                             11

cases, these plans were developed as part of funding applications to obtain necessary
equipment or external support.

  �	   Constrain    on greater AHEC use of telecommunications include AHEC# kzck of
       ownership of the technology, its capital and oprating costs, and lack of
       practitioner familimity or comfort.

Every AHEC we spoke with and reviewed has had some involvement with long
distance learning, telemedicine, and telecommunications.   The logic of using these
technologies for rural medicine seems self-apparent. In our interviews and site visits,
we found that a number of constraints are inhibiting its growth and use by AHECS.

Lack of ownership of the technology means that AHECS are not able to control access
to it or to have primary use of it. In only a few instances did we find that the health
care community was a major partner in controlling the technology needed to provide
telecommunications and long distance learning. Even in those instances, the AHECs-­
and especially their continuing education and support services--take second place. In
many States, telecommunications is the property of the higher education system,
particularly junior colleges or community colleges. In at least one State, it is
controlled by the criminal justice system. As a consequence, AHECS must take their
turn along with all the other interested parties to use the technology.

Telecommunciations equipment can be costly. A relatively inexpensive satellite dish
can be used for receiving programming in a one-way transmission. For two-way,
interactive audio and video, however, we heard prices ranging from $38,000 to
$100,000 for the necessary equipment, money that the AHECS claim is not a priority
in their spending plans.

There also is resistance to these technologies among some practitioners. AHEC
directors told us that practitioners think that telemedicine could be a good idea, but
only in very rural areas where there are no physicians or hospitals. Older physicians
appear to be uncomfortable with these new technologies, probably because of
unfamiliarity. This concern implies that one AHEC role is training practitioners on
how to use these technologies.

Despite these constraints, AHEC directors foresee greater use of and reliance on long
distance telecommunications as a means of delivering continuing education, gathering
research and data, and providing consultation and diagnostic services for isolated rural
practitioners. They anticipate that entry into practice of a younger generation of
practitioners, who are familiar with computers and electronic transmission as standard
ways of doing business, will lead to wider acceptance and more frequent use of these
technologies. At the same time, the AHEC directors stress that face-to-face contact
and interaction with colleagues will continue to be important.




                                           12

                 OPPORTUNITIES:

            LOOKING   TO THE FUTURE


Clearly AHECS will continue to emphasize basic medical education as their primary

mission. Indeed, AHECS appear to be well-positioned to play a leadership role in

supporting the increasing national emphasis on primary care. AHEC directors we

interviewed believe that emerging medical education policy supports the basic AHEC

approach: linking medical schools and community-based practitioners to train students

in primary care.


How do AHECS’ support services fit into this future? AHECS not only help

practitioners maintain their skill levels by providing medical library resources and

continuing education, but these services can also reduce a sense of professional

isolation. These support services complement the AHECS’ role as a provider of basic

education, and, indeed, offer ways through which AHECS can strengthen their

performance in that role.


On a strategic level, providing support services can play an important role in

enhancing AHECS’ relationships with State officials. AHECS recognize that their long

term viability depends on support from their State governments, predicated on their

acceptance within the broader medical community. The success of AHECS will be

measured by the number of primary care students, residents, and other practitioners

that they produce. At the same time, an AHEC’S support services provide ongoing

interaction with local practitioners that can help to secure its place within the local

medical community. By meeting the needs of local practitioners for the services they

provide, AHECS are able to build a constituency for their services, particularly among

legislators representing rural and underserved areas.


WE RECOMMENDTHAT THE PUBLICHEALTH SERVICE STRENGTHENTHE ROLE OF

~CS   BY FACILITATINGTHEiR ABILITYTO FOCUS SUPPORT SERVICESON THREE

AREAS: CLJNICALPRACrICE GUIDELINES, MANAGED C-     AND

TELEco MMUNICATIONS.


Our recommendation identifies opportunities to take advantage of AHECS’ potential

for assisting practitioners in the emerging health care environment. We also provide

some options for how PHS can facilitate AHECS’ ability to take advantage of these

opportunities. We encourage and welcome other approaches that PHS staff and the

various AHEC programs may develop on their own to reach this goal.


�   CLINICALPRACTEE      GVLDELINES


Variations in clinical practice among different physicians and hospitals, and in different
geographic areas have long been observed. 13 With the growing awareness of these
variations, concern has developed about adverse patient outcomes and financial costs


                                            13

associated with inappropriate medical care. Clinical practice guidelines have been
developed as part of a larger effort to reduce unwarranted variations in care and the
costs associated with them. As part of this effort, PHS has invested in the
development of guidelines and their use by practitioners through the Agency for
Health Care Policy and Research (AHCPR).

  �   ~EC3     could facilitate adoption of clbtical practice guidelbux ik nualpractice by:

       - I.hcluding guidelines as part of continuing education courses
In their continuing education courses, AHECS could disseminate guidelines, explain
how they can be applied, and identi& issues of particular concern in rural practice.

       - Ensuring guidelines are available in their medical liiraries
AHECS could ensure that the guidelines are available in their medical library resource
collections. AHECS could see that practitioners are made aware of the guidelines and
how to access them.

       . Helping adapt guidelines to rural conditions
AHECS could identi~ how and under what conditions clinical practice guidelines need
to be adapted to the specific needs of rural communities.

  w    %   PHS, wotig    through AHCP& coukl encourage the guidklina’ acihptiim by:

       - Involving AHECS in the development of guidelines
The AHCPR could ensure that rural viewpoints are reflected in practice guidelines by
including representation from AHECS in a consultative role as the guidelines are
formulated.

       - Encouraging AHECS to disseminate guidelines
The AHCPR now includes AHECS on its routine distribution list for the guidelines.
As part of its marketing strategy, AHCPR could utilize AHECS’ expertise in providing
continuing education to see that rural practitioners are made aware of the guidelines.
For example, AHCPR might wish to consider using some of its dissemination funding
to assist AHECS in developing continuing education courses on practice guidelines.

       - Assessing rural practitioners’ concerns
The AHCPR could determine whether those concerns noted in this report, and any
other concerns, need to be addressed in the guidelines. If its assessment identifies
problem areas for rural practice, AHCPR could draw on AHECS’ expertise to identify
ways of addressing these concerns.

       .  E&mining the use of guidelines in rural areas
The AHCPR could determine where and how extensively guidelines have been applied
in rural communities, and what problems practitioners have encountered with them in
practice. The AHCPR might wish to identify lessons learned from these experiences
and consider how guidelines can be applied elsewhere.


                                            14
�   MANAGED     CARE

Even without enactment of national health reform legislation, numerous changes are
taking place in the health care system. Foremost among these is the development of
managed care systems, which could pose particular difficulties in rural communities.
Analysts have projected that managed care could well exacerbate existing problems in
the availability of primary care practitioners in rural areas, as urban managed care
networks recruit additional primary care physicians from the limited number that are
available .14 Others have cited the difficulties that a system relying on managed
competition would hold for rural communities where there are few practitioners,
limiting the competition that could take place.ls In addition, managed care may
develop more slowly in rural areas than in urban ones, and it is likely to encounter
more resistance in those areas.lG

    �   xiIlEC3 could inform mral practitkmem about managed care by:

        - Sponsoring informational symposia for rural practitioners
AHECS could develop and provide information for rural practitioners on multiple
topics, such as the role of the gatekeeper, clinical patient management in a system
with different economic incentives, or standards for practitioner participation in
different managed care plans.

        - Assisting practitioners in negotiating contracts
AHECS could assist rural practitioners in negotiating contracts with existing managed
care organizations, or they could even help practitioners develop and organize their
own managed care plans.

        - Participating in State-level planning
In those States that are undertaking their own health care reform initiatives, AHECS
could play an active role to ensure that the needs of rural areas are addressed in that
debate.

    �   %     PHS   CO1.dii   assist   AHECS in this   @Olt   by:

        “ Disseminating information on managed care
The PHS role in helping AHECS address managed care is likely to be primarily an
educational one. The PHS, through the Federal AHEC Program or some other entity,
could disseminate materials on managed care for rural practitioners. These materials
could address how AHECS have been involved in the development of managed care.

        “   Taking advantage of its ongoing communications with AHECS
The Federal AHEC Program could encourage the inclusion and discussion of these
issues at annual meetings of AHEC program directors, or as part of routine
newsletters (e.g., the AHEC Bulletin) that the AHEC community publishes.




                                                       15

�   TELISCOiWUUVIC42T0hTS

Telecommunications has the potential to become a central focus of efforts to reduce
the professional isolation of practitioners. This technology holds multiple benefits for
rural practitioners, such as overcoming travel distance and reducing time away from
the practice setting. By taking a leading role in efforts to expand the use of
telecommunications technology, AHECS can help assure that the needs of rural
practitioners are met. Significant changes in telecommunications and its applicability
for health care are on the horizon.17 These changes include emergence of the
“information superhighway,” the evolution of a new generation of practitioners who
have used computers and other technologies as a routine way of doing business for
some time, and likely improvements in the technology in both its capabilities and its
“user-friendliness.”

    �	   AHEC3 could lead flo~ to take greater advantage of telecommunications’
         potential to facilitate rurdpractitioner access to information by:

          “ Actively participating in State telecommunications initiatives, such as those
         involving State offices of rural health
Efforts to expand telecommunications are under way in some States (e.g., efforts led
by State offices of rural health or departments of education). An AHEC’S role could
be to see that the needs of practitioners in isolated rural areas are met. Where such
efforts are not yet under way, AHECS could take the lead in convening consortia of
telecommunciations users to encourage broader application of this technology.

         “ Training practitioners, students, and primary care residents
This education could take place in the basic training that AHECS provide to health
professions students. For current practitioners, AHECS could include training on
telecommunications in their continuing education programming.

    �    The PHS could facilitate these efJorts by:

         - Encouraging the Federal AHEC Program and the Federal Office of Rural
         Health Policy to work closely together to overcome barriers
Within PHS, the Federal AHEC Program within BHPr could facilitate this effort by
working closely with the Federal ORHP and with State offices of rural health to
develop strategies for overcoming the barriers to broader utilization of telecommu­
nications. The Federal AHEC Program and ORHP could distribute available
information and training materials on expanding utilization of telecommunications.lg

         “ Considering the extent of AHEC collaboration with telecommunications
         networks in its review of funding applications
The Federal AHEC program could consider the extent to which AHECS are involved
in linking with State efforts to develop telecommunications in its rating of applicants
for AHEC funding. Current guidelines address linkages to State initiatives, such as a
State office of rural health and statewide training consortia. These guidelines,
however, do not specifically address an applicant’s participation in efforts to expand
the utilization of telecommunications.


                                              16

 COMMENTS                     ON THE               DRAFT             REPORT


We received comments on the draft report from the Public Health Service (PHS) and
the Assistant Secretary for Planning and Evaluation (ASPE) within the Department.
We also received comments from the National Organization of AHEC Program
Directors (NOAPD). We include the full text of all comments in Appendix A. Below
we summarize the comments of the respondents and, in italics, offer our responses.

PHS COMM13NTS

The PHS concurs with our recommendations.      The agency identifies a plan of action
that it will undertake to implement those recommendations.   We are pleased that PHS
concurs with our recommendations, and we welcome its implementatt”on plan. In
particular, we look forward to achievement of those goals that the agency indicates can be
accomplished within existing staff and resource constraints.

The PHS plans to convene a work group with staff from HRSA and AHCPR to
address our recommendation on the use of clinical practice guidelines. The objective
of this effort is to develop a process for increasing the involvement of AHECS in the
dissemination of existing guidelines and in the development of new guidelines as a way
of providing input from rural providers. We believe that this work group, plus the
agency k planned involvement of AHEC program directors and MEC         center directors,
should be able to address the issues raked in our report.

The PHS acknowledges that a more formal process could be used to incorporate
current information on managed care. The PHS has already established a task force
within HRSA to identify steps that could be taken to assist its customers and
constituents in responding to the growth of managed care. The HRSA !s establishment
of a task force to identify steps that could be taken in this area is recognition of its
importance.    We would welcome receiving a copy of the report and action plan that this
task force produces.

The PHS notes the recent increase in the awareness and use of telecommunciations
among rural practitioners. The HRSA will undertake efforts to increase interaction
between the AHEC program and the Office of Rural Health Policy as one approach
to further strengthen development of telecommunications systems. The agency raises
caution about costs associated with initial linkage and maintenance of telecommuni­
cations systems.

 We appreciate the information that HRSA has provided on the use of the Internet and the
Montana MLEC5 AHECNet, and we have incorporated this information into the text of
our report. We believe that increased interaction between the AHEC program and the
 Office of Rural Health Policy will strengthen development of telecommunications systems.
 We are aware of the expense involved in developing and maintaining telecommunications
systems. We utge HRSA to continue to monitor developments in this rapidly evolving
field. We encourage HRSA to continue to work with other Federal agencies, State



                                            17

governments, and private organizations involved in telecommunications     to help develop
thti technolo~h potential for delive~ of health care services in underserved rural areas.

ASPE COMMENTS

The ASPE generally agrees with our recommendations, particularly those that address
clinical practice guidelines and managed care. The ASPE suggests that we might wish
to emphasize grantee involvement in efforts to explore the use of telecommunications
as a criterion in scoring grant applications. We are pleased that ASPE concurs with our
recommendations.      We believe that an indication that AHECS are exploring telecommuni­
cations would not be sufficient for assessing their actual involvement in that field. But we
have revised the language suppom”ng that recommendation to emphasize that the Federal
AHEC program could consider “the extent to which AHECS are involved in linking with
State ejforts to develop telecommunications” in its rating of applicants for MEC funding.

NOAPD COMMENTS

The NOAPD made a number of technical and editorial comments. The organization
notes, and we indicate in the introduch”on, that this report examines only one segment
of the total AHEC mission. We have included in the text language suggested by the
organization that AHECS’ view their role in continuing education as filling a void not met
by other sources of continuing education. We have also made some editorial changes in
the case descriptions in Appendix B.

The NOAPD questions whether the AHCPR guidelines may be pertinent topics for
continuing education in some communities served by AHECS because they have not
been requested by local practitioners. We u~e MECS to not on~ take advantage of

existing opportunities to educate prach”tioners about the information contained in these

guidelines, but to also play a proactive role in making practitioners aware of their

potential use. In addition, we note that an important thmst of our recommendation is to

involve the expertise residing in AHECS to make these guidelines more relevant and useful

to rural practitioners.


The NOAPD recognizes the role that AHECS could play in providing information on
changes in the health care system. The organization questions whether one such role
is negotiating contracts with managed care organizations. We believe that this is a
potential role for some AHECS. We offer it as one example of ways in which AHECS can
help keep rural practitioners informed about managed care. We agree that AHECS also
have an important role in sponsoring informational symposia on managed care topics.

The NOAPD supports efforts to encourage AHECS to take an active role in the
advancement of telecommunications technology, but cautions that AHECS’ role in this
development will vary among States. The NOAPD also notes that developing
telecommunications requires substantial financial effort. We recognize the variation
among States in how thk development is proceeding, and we are aware of the expense
involved. We are not suggesting that funds be subtracted @om the AHEC program for
this purpose, but rather that fimding applications pay explicit attention to how AHECS are
involved in linking with State eflorts to develop telecommunications.


                                             18
          APPENDIX       A

DETAILED COMMENTS ON THE DRAFI’ REPORT




                 A-1
      �,*   *,*”*,,

    �4                    %,

.
                                                                                  PublicHealth%rvice

                          (
                      /
                               DEPARTMENTOF HEALTH& HUW        SERVICES
[       Ad
    -4%
       %,m
       >                                                                          Memorandum
                                    APRII    1995

                 Date
                From            Assistant    Secretary for   Health


               Subject         Office of Inspector General (OIG) Draft Report    “mea Health
                               Education centers:     A Role in Enhancing the Rural Practice
                               Environment, “ 0EI-01-93-O0570
              To
                               Inspector General, OS



                               Attached are the Public Health Service comments on the subject

                               OIG report. We concur with the report’s recommendations.   Our

                               comments delineate the actions taken or planned to implement

                               these recommendations.


                                                       ItLip(c‘L­

                                                       1

                                                      Philip R. Lee, M.D.


                               Attachment





                                                                A-2

       PUBLIC HEALTH SERVICE (PHSI COMMENTS ON THE OFFICE OF
    INSPECTOR GENEm   ~OIG\ DIUU?T REPORT “AREA HE~TH EDUCATION
   CENTERS: A ROLE IN ENHANCING THE RURAL PFL%CTICE ENVIRONMENT, ”

                          OEI-01-93-00570



  General Comments


 We believe that achievement of the goals and tasks outlined in

 the subsequent PHS comments is possible over a three-year

 Deriod if sufficient resources are available. Some of the

 tasks described can be accomplished through existing staff and       .

 resources . However, other tasks will require additional

 resources .


 OIG Recommendation


 We recommend that the PHS strengthen the role of Area Health

 Education Centers (AHEC) by facilitating their ability tO

 focus support services on three areas:


 A.   Clinical Practice Guidelines


      The AHECS could facilitate the adoption of clinical

      practice guidelines by including guidelines as part of

      continuing education courses, ensuring that guidelines

      are available in their medical libraries, and helping

      adapt guidelines to rural conditions.


      In addition, the PHS, working through the Agency for
      Health Care Policy and Research (AHCPR), could encoura9e
      guidelines’ development by: involving A.HECS in the
      development of guidelines, encouraging JLHECS to
      disseminate guidelines, assessing rural practitioners’
      concerns, and examining the use of guidelines in rural
      areas .


PHS Comment


We concur with this recommendation.  Routinely, AHCPR’S Center

for Research Dissemination and Liaison (CRDL) sends clinical

practice guidelines to AHEC directors urging guideline

dissemination . As the guidelines on various clinical issues

have been developed, AHEC programs have distributed some of

these guidelines to health care practitioners participating in

continuing education programs. AHEC staff received feedback

that some of the guidelines could be made more rele~’ant to

rural practice settings.


In October 1990, PHS’ Health Resources and Services
Administration (HRSA) awarded a contract to the Arkansas A.HEC
to compare three dissemination modalities. The AHCPR
contributed the funding for this contract. The project
examined the use of different educational interventions to


                              A-3
                                                                   2


   achieve cognitive and behavioral changes in physicians in

  primarily rural settings. Three areas in Arkansas received

  tailored interventions, while a fourth control area received

  routine notification of the 1991 asthma treatment guidelines
  issued by the National Heart, Lung, and Blood Institute. The
  three tailored strategies used a standard continuing medical

  education conference with peer academic detailing; COmputer

  conferencing and computer teaching modules to highlight key

  aspects of the guidelines; and multiple facsimile

  transmissions of executive summaries, along with posters and

  audio and video tapes.


 A review of the project’s results    did not reveal great
 differences in the performance and cognitive knowledge of

 physicians; although the multimedia, repetitive exPosure

 strategy showed some clinical and cognitive impact. It was

 also found that the success of various strategies was

 correlated with phys~clan and practice    characteristics. This
 suggests the importance of designing disseminations that are

 appropriate for the target audience.


 We believe that worthwhile objectives  are the development of
  (1) a process for the dissemination of existing guidelines to

 AHEC programs, centers, and trainees; and (2) a strategY to

 increase the involvement of local AHEC staff and trainees, and

 a range of rural health care providers, in the development of

 new guidelines.   Staff from both HRSA and AHCPR will form a

 work group to develop a plan to achieve these objectives. The

 work group will consult with AHEC program directors and Center

 directors in the development of this plan.


The goals of this effort are to:


     o	   ensure existing guidelines are available in hard copy
          in the libraries of the schools associated with
          ongoing AHEC programs, and also in local community-
          based AHECS and affiliated learning resource training
          sites ,

     0	   ensure that a representative number of local AHEC
          staff and rural health care providers are added to
          existing AHCPR advisory groups charged with the
          development of guidelines, and

     o	   explore the use of INTERNET and/or AHECNET to enhance
          the dissemination of AHCPR guidelines.

In z related effort, AHCPR is testing a prototype of AHCPR

Clinical Practice Guidelines on CD-ROM. This prototype

version of the 15 current .ZLHCPRguidelines is expected to be

available at the May 1995 annual meeting of the Medical


                               A-4
                                                                      3



     Library Association.  If this proves successful, this version
     of the guidelines can be made available to the AHEC libraries.
 OIG Recommendation


 !3.     Managed Care


         The AHECS could inform practitioners about managed care
         by: sponsoring informational symposia for rural
         practitioners, assisting practitioners in negotiating
         contracts , and participating in State-1evel planning.

         The PHS could assist AHECS in this effort by
         disseminating information on managed care, and taking
         advantage of ongoing communications with AHECS to
         encourage the inclusion and discussion of this issue at
         annual meetings of AHEC program directors.

 PHS Comment


We concur. In the past, managed care has been a focal point

of several ~EC programs and a part of a continuing education

program. These efforts were often in response to requests by

provider groups, many of whom are being asked to join managed

care organizations.


 We acknowledge, however, that a more formal process could be
developed to incorporate current information on managed care
 issues into ongoing AHEC dissemination efforts.   In January
 1995, the HRSA established a task force to explore the steps

zhat could be taken to assist customers and constituents of

HRSA to respond to the dynamic grow-th of managed care

organizations throughout the nation. One task of this task

force on managed care will be to analyze the dissemination

role of the AHEC and other HRSA programs. Once this task

force’s assignment is completed, HRSA will determine whether
efforts like those envisioned by the OIG will  be undertaken tO
assist AHECS in disseminating info~ation on managed care.


31G Recommendation


<.      Telecommunications


       The AHECS could lead efforts to take greater advantage of

       telecommunications ‘ potential to facilitate rural

       practitioner access to information by actively

       participating in State telecommunications initiatives,

       such as those involving State offices of rural health;

       and training practitioners, students, and primary care

       residents .



                                 A-.5

                                                                      4



       The PHS could facilitate these efforts by encouraging the

       Federal AHEC program and Office of Rural Health Policy

       (ORHP) to work closely together, and considering the

       extent of A.HEC collaboration with telecommunications

       networks in its review of funding applications.


 PHS Comment

 We concur.     In the past few years there has been a significant
  increase in the awareness and use of telecommunications
 technology and electronic media among rural practitioners.       A
 recent survey of 32 AHEC programs that currently receive
 Federal funds indicates that all 32 are utilizing INTERNET and
 National Library of Medicine telemedicine resources.     The
 AHECNET (established    by the Montana AHEC) is used to a lesser
 extent, with 18 of the AHEC programs surveyed reporting a

 linkage to AHECNET, Also, six AHEC programs report a linkage

 with a teleco~unications      awardee of the ORHP.


The HRSA will undertake efforts to increase interaction
between staff from the AHEC and ORHP programs. A goal is
enhanced staff communication and familiarity with the
respective programs by sharing info~ation regarding current
awardees, participating in merit review sessions of the
respective programs, and following up with awardees of each
program to encourage the Use of ORHP supported
telecommunications systems.


 A second goal is to explore the feasibility of linking each of
 the 124 community-based AHECS to AHECNET, INTERNET, or an ORHp
 supported telecommunications system. It would be possible to
accomplish this goal over a three-year period if sufficient
resources were available.    To aate, AHEC program resources
have been used to support the establishment of community-based

training programs, and to enhance learning resources and the

development of preceptors in local areas. Funds have not been

sufficient to support the cost of the initial linkage to

telecommunications systems in many States, or the costs of

maintenance.





                               A-6

  +*’.
:“.*Jg  .,*JM   ,,   ,,,




                               DEPARTMENT   OF HEALTH & HUMAN SERVICES                        Office   of the Secretary
;
 -0
  %,+
    /.,,
     > w                                                                                      Washington,     D.C.   20201




                                                            M      I 3 1995




                           TO:
       June Gibbs Brown

                                      Inspector General


                           FROM :
    Assistant Secretary for

                                      Planning and Evaluation


                           SUBJECT :
 Review of OIG Draft Report: “Area Health Ed~t@n

                                      Centers: A Role in Enhancing the Rural Practie

                                      Environment, “ 0EI-01-93-O0570


                           Thank you
 for giving me the opportunity to review your dtaft
                           report on
 area health education centers (AHECS) . We are pleased
                           to see that your inspection shows that AHECS are enhancing rural

                           practitioners’ access to health care information and providing

                           needed continuing education.


                      We generally agree with your recommendations, particularly those

                      focused on strengthening AHEC activities in the areas of clinical

                     practice guidelines and managed care. While we also agree that

                     AHECS should become increasingly involved in efforts to develop

                     the use of telecommunications in health care, it may be premature

                     for PHS to consider the extent of AHEC collaboration with

                     telecommunications networks in its review of funding applications

                      (as recommended at the bottom of page 16). Telemedicine is a

                     rapidly evolving field, and many complex technical, medical, and

                     financing issues need to be resolved before there will be any

                     consensus on the appropriateness of its use in rural health care.

                     While A.HECS certainly could (and should be encouraged to) PlaY a

                     key role in exploring and resolving these issues, it may not be

                     advisable at this point to include “the extent to which

                     telecommunications are utilized” as a criterion on which grant

                     applicants are scored. Perhaps this recommendation could be

                     reworded to emphasize the level of the grantee’s involvement in

                     efforts to exulore the use of telecommunications in health care,

                     rather than the level of its utilization of telemedicine.





                                                                  /~
                                                                7X=  , ,
                                                      David T. Ellwood         ,;        -

                                                                               ‘L

                                                                                    Y

                                                                                    //




                     PREPARED BY: ASPE/HP:THertz:245-7779 :3-13-95


                                                             A-7
                                                Mmch 21, 1995

       Area Health Education
                                                June GibbsBrown
            Centers Pfogram                     Inspector General
                                                Department of HeaIth and Human Services
                           O!fksofthe           Washington, DC 20201
                        Exeedve
                              Directof
                                               Dear Ms. Brown:
           University of Arkansas
            for MediealSciences                 Thank you for the opportunity to comment on the dratl inspection report
            4301 W. Markham, Slot 599
           LittJe Rock, Arkansas 72205
                                                entitled, “Area Health Education Centers: A Role in Enhancing the Rural
                           (501) SSS-5200       Practice Environment”. The National Organization of AHEC Program
                      Fax: (S01) M&Moe	        Directors believesthat the repoti accurately reflects the need for expansion of
                                               support setvices provided through Area Health Education Centers, The
                                               National Organization of AHEC Program Directors is especiaUyconcerned
                         MEG FORTSMITH
                        612 Eaub121hs8e4       that the report clearly specifi that it addresses only one segment of the total
                        FOIISmith,AR 72sot
                       FhorI&(501) 7S$242!
                                               mission of Area Health Education Centers. The repofi was not a
                        AHECPM! BLUFF
                                               comprehensive review of the AHEC Program, but rather, was an assessment
                            aloh4uromy         of the role that the Program is currentlyperforming or could pefiorm in
                       PineBIJR,AR 71603
                      mma [501) 54I.SO1O       providing support services to enhancethe practice environment for health care
                wcsourn      ARKANSAS
                        490 WaI FwIkner
                                              1practitioners in rural areas.
                       HM,     AR717W
                      mma (501)es7-24a3
                                               In the Executive Summaryof the report at the top of page ii, we suggest that
                        AHECNORTNWEST
                      2s07 Emi Joym Slfeef     a statement be added which says, “.4HECSgenerally view their role in
                      Fee,       AR Z??&l
                      R&w (541)S21~69
                                              continuing education as one of meetingspecific needs  andfilling voids that
                     AHECNORTNEAST            may beleft  byother  sources ofcontinuingeducation  without   duplicatingthese
                       222 EA,UJackmM
                   &M6bf0,   AR?2401
                                              other  sources”. This same missionof AHECs should be included on page 6,
                  Pllmeu(al) mm               paragraph 4 or 5. Afso, the same theme should be carried fon.vard to the
                    AHECSOUl14WE6T
                      603 Wdlvl Slma
                                              recommendations on page 13 and 14 considering   clinicalpractice guidelines.
                   TBIakm& AR 755%?
                  FtIOnetWJI] 774-7236
                                             The development of continuing education programs based on specific
                                             identified needs in the community  sewedbytheAHEC may notinclude         the
                                             topics covered  bytheclinical guidelinesdeveloped by AAHCPR, AHECS.­
                                             should not be required to provide continuing education courses simply
                                             because guidelineshave been developed    byAAHCPIL Continuing
     education
                                             courses
 arenot well received by the audience unless topics are covered that
                                             have been specificallyrequested or seem to be extremely relevant at the time
                                             of presentation.

                                             An important role for AHEC is to make providers aware of the practice
                                             guidelines and to make them availableto constituents located within their
                                             respective areas. AHECSshould be encouraged to include the guidelines as
                                             resource material anytimea pro~ram is conducted that would encompass the



h   Equal C@ortunky      Emdoyer
                                        I                                A-8

Ms, June GibbsBrown
March 21, 1995
Page 2

               scope of a publishedguideline.The adoption of practice guidelines ofien
               requires significantcultural change by practitioners, Continuing education
               courses may not done accomplishthese changes, but they are art important
               way of providinginformationto practitioners.

                An appropriate role for AHECSis to provide information regarding the
                numerous changes that are taking place in the health care system. However,
                the statement on page 15, paragraph 3, which says that “AIIECS could assist
                mral practitioners in negotiating contracts” suggests a role for AKECSthat
                wot.ddnot be widely adopted, Special skills are needed in these areas that do
               not occur frequently in the AHEC staff The appropriate role for A.HECSin
               this area should be more preciselystated by recommending that AHECS
               should provide sponsorshipand coordination of workshops and conferences
               to inform and teach practitioners and administrators how to work within
               managed care systems.

               Itis an appropriate role for AKECSto actively pursue the development of
               telecommunicationslinkages, and to be the communityfacilitator for groups
              that wish to pursue development of telecommunications.Every effort should
              be made to encourage AHECSto take an active role in the advancement of
              this technology. Although AHECSare aware of the usefi.dnessand potential
              for telecommunicatiol~sin bridgingthe information gap from academic health
              centers to remote and mral practitioners, these efforts require substantial
              financialbacking generally by state governments, and cefiairdy significant
              commitment of large medical centers, The role of the AF3ECProgram will
              vary from state to state. In some, the AI-EC will be only a facilitator; in others
             the AHECSwill play a lead role in developing telemedicine. The specific
             activity should be carefilly reviewed because of the great variability in
             regional needs and resources. Because telemedicineis an extremely expensive
             operation, specialfi.mdingwould be required to assist in the development of
             these networks, finding that would not subtract from the finding that is
             needed to develop the general infrastructure of a balanced AHEC Program.

             Some specific editorial comments are suggested. (Note: strikethrough =
             delete, underline = add.)

             Page A-7, last paragraph, first sentence’

                  The Nova Southeastern UniversityM-EC Program has provided
                  computers to 12 CHCSand County Public Health Units where ...
                  &3!l@!m .,. student training takes piace. Mmg—m&k




                                          A-9

Ms. June Gibbs Brown

March 21, 1995

Page 3


                          ~=hL             order to utilize these comuuters to conduct
                          literature searches. the AKEC Program .,.

                Page A-8

                CONTINUINGEDUCATION COURSES

                2nd paragraph add a bullet:      �   Tuberculosis and Other Infectious Diseases

                Page A-8, last paragraph, first sentence:

                        ... courses were provided ... for health care professionals
                        emoioved.,. in CHCs ...

               Page A-9

               TELECOhlNfUNICATIONS

               2nd paragraph, add second sentence:

                     N ofthe AI-EC Centers in Florida took an active role in conducting th~
               cotierence.

               Page A-10, last paragraph, last sentence;

                    ...


              Page B-3, last paragraph:

                    ... FUUT,,.~ of the 19 counties in the Nova Southeastern
                    ~           ... University AHEC program area,., -M,,. ~ have
                    partial county ...

              SOUTH TEXAS AREA HEALTH EDUCATION CENTER.
              RECOMMENDED CHANGES/ADDITIONS

              Note: changes/added text is underlined.




                                            A-10

Ms. June Gibbs Brown

March 21, 1995

Page 4



                 OVERVIEW

                 1st sentence:

                         ..   based at ~he Universityof Texas ,..

                MEDICAL LIBRARY RESOURCES

                1st paragraph:

                        Based at the AHEC program office in San Antonio ... area
                        consortium of host)ita]s and health care providers ...

                3rd paragraph:

                        .,. and Valley Baptist Medical Center, hosts of mimatv care
                        residencv rotatiom and student meceutor m omms which the
                        AI-EC sponsors.

               Continuing           EDUCATION COURSES

               1st paragraph:

                    Each UTHSCS~ professionalschool -- medicine,nursing,
                    dentistry, and allied heaith --M well as UT-Austin’se~ension
                    pharrnacvurowam, has its own office of continuing education.

               Znd paragraph:

                    Add sentence at end: Instructional developmenturomuns are also .
                    gnlt inely conducted for new receptors or communitv-base~
                    clinicalfacultv$

               CONCLUSIONS (TELECO~CATIONS)

              Addendum:

                    The South Texas AHEC utilized the knowledge gained by the
                    demonstration activity to develop a plan, financethe acquisition of
                    equipment, and implementthe South Texas Distance Lea~n$ and




                                              A-n
Ms. JuneGibbs Brown
March 21, 1995
Page 5

                      TeleHeaithNetwork which cumentlylinks ten community clinical
                      training sites with the UTHSCSA campus, (NOTE: This activity
                      was in process at the time of the initialw-sitin June, 1994.
                      Installation of the equipmentbegan in Januruy, 1995.)

               Thank you for the opportunity to provide comments on the drafi of the report.
               We believe that the report contains very positive recommendations for the
               A.HECProgram as it addressesnew technology and new opportunities that
               are now being presented.

               Yours most sincereiy,



              Charles
               ‘$” O. Cr~ord, DDS
              Vice Chancellorfor Regional Programs
              Executive Director, AHEC Program

              COC:he



              cc:�    Ocic Hanis, M.D.
                      Lou Coccodrilli
                      Cherry Tsutsumida




                                          A-12

                                      APPENDIX                              B


               AHEC SUPPORT SERVICES IN THREE STATES:
                         CASE DESCRIPTIONS




                                       TABLE OF CONTENTS



INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   B-2


CASE DESCRIPTIONS


 �   Arkansas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-3


 �   Florida     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-7


 �   South Texas         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-11





                                                         B-1

                          INTRODUCTION


This appendix reports on support services provided by four Area Health Education

Centers (AHECS) in three States: Arkansas AHEC, a statewide program based at the

University of Arkansas for Medical Sciences, Little Rock Nova Southeastern

University AHEC Program, based in Miami Beach, which serves southern and central

Florida and the University of Florida’s North Florida AHEC Program, which serves

northern Florida; and South Texas AHEC Program, based at the University of Texas

Health Science Center at San Antonio, one of three AHEC programs in that State.

Our intent in selecting these sites was to provide information on a range of activities

that AHECS might undertake to make the rural practice environment more attractive

for health care professionals and to help them keep their clinical skills up to date.


We visited each of these AHECS for two-to-three days in June 1994. During our

visits, we interviewed administrative personnel from the central AHEC program office

and from individual AHEC centers affiliated with each program, Our visits included a

review of documents and records kept by the AHEC. We also interviewed

practitioners--physicians, nurse practitioners, nurses, and allied health personnel--who

use these services, in an effort to get an assessment of their views.


In this appendix, we describe how individual AHECS provide support services, which

we recognize are only one facet of an AHEC’S operations. Each AHEC also provides

clinical clerkships and training opportunities for medical and other health sciences

students, such as nurses, nurse practitioners, pharmacists, and allied health

professionals. Each AHEC either maintains or is affiliated with a primary care

residency program for physicians. Each of these AHECS also has in place programs

to recruit high school students to health careers, for example through summer health

career opportunities camps.


To select the AHECS for our case studies, we relied on our review of Federal AHEC

Program Office files and discussions with officials in that office to identify sites that

might be instructive to us. To make our final selection, we relied on our own

judgments about programs that would provide information to benefit our study and

provide illustrative examples of how AHECS can help to meet the needs of rural

practitioners.


We report on each AHEC using the same format. Following a background section,

we describe what each AHEC is doing in medical library resources, continuing

education courses, and telecommunications.    We then draw some conclusions about

the role that support services play for the AHEC and assess their responsiveness to

practitioner needs.





                                           B-2

                       ARKANSAS

 AREA           HEALTH    EDUCATION                                  CENTER


OVERVIEW

Arkansas AHEC is a statewide program that has operated since 1973. Initially funded
by State appropriations, Arkansas AHEC received its first federal AHEC support in
1985. Arkansas AHECnow operates onanannual            budget of about $14 million with
325employees (including clinical facul~, residents, and administration). The AHEC
program is coordinated through the University of Arkansas for Medical Sciences
(UAMS)in Little Rock, the State’s onlymedical school. Six AHECcenters         operate in
Arkansas. This case study is based onsitetisits   tothe WECprogram       office in Little
Rock, and to two AHEC centers in Pine Bluff and Fayetteville.19

Each Akansas MECcenter         operates asagroup practice in family medicine. Each
center provides a residency program for graduate medical students and preceptorships
for undergraduate medical students, in addition to other services. The AHEC group
practices are mainstream health care providers that compete with other private
practitioners in their communities, while providing training opportunities for medical
students and residents in a “real world practice environment.”

MEDICAL     LIBRARY     RESOURCES

Each AHEC center maintains its own library that is linked to the UAMS medical
library, the State’s primary source of medical research literature. The UAMS library
enables the centers to link with a five state regional library network and the National
Library of Medicine (NLM). Four libraries have CD-Rem technology for accessing
documents, and two have been designated as NLM access libraries. The six AHEC
libraries served 65,000 patrons and conducted 24,000 searches.n

Fayetteville AHEC library served over 6,000 users in 1992-93, 80 percent of whom
were health professionals. According to data provided by the AHEC, 60 percent of
these health professionals were physicians; about 16 percent of that subset were rural
practitioners from Northwest Arkansas. Pine Bluff AHEC’S data show that the library
had more than 30,000 users in 1992-93. Health professionals accounted for 42 percent
of the users; 48 percent were students and residents, and 10 percent were members of
the general public, The AHEC librarian told us that 34 percent of the practicing
professionals were from rural communities.

Pine Bluff AHEC has established the Southeast Arkansas Medical Information Center
(SEAMIC), a consortium of 11 rural hospitals. The SEAMIC makes audio-visual
materials available to staff at these member hospitals. These materials are available
to a wide range of users--including x-ray technicians, medical records administrators,




                                          B-3

hospital managers, dietitians, and housekeepers; in practice, nurses and nursing
students account for about three-fourths of the 3,400 users.

CONTINUING       EDUCATION

Each AHEC center in Arkansas determines the amount of continuing education that it
will provide. The AHEC centers we visited offer only limited continuing education for
physicians other than “noon conferences” for AHEC family practice residents. These
noon conferences are daily training sessions at the affiliated hospital that feature
lectures and discussions, led by local physicians and AHEC staff. Although the noon
conferences are open to all local practitioners, in most cases only those leading the
session are in attendance. In addition to these noon conferences, Pine Bluff AHEC
hosts a monthly continuing medical education lecture series for local physicians,
combined with a dinner meeting, and Fayetteville AHEC sponsors 18 to 20 courses for
physicians from the AHEC service area, often in conjunction with a cosponsor such as
a hospital or pharmaceutical company.

Arkansas’ AHECS fill the need for local nonphysician continuing education to a
limited extent. During the 1992-93 fiscal year, SEAMIC offered 29 courses on 13
different topics to member hospitals. These courses were attended by 620 individuals.
These courses are directed primarily at nurses, but also are open to hospital managers
and other staff. Pine Bluff AHEC also sponsored 19 emergency medical service
training courses for cardiac life support.

Fayetteville AHEC sponsored 45 nonphysician practitioner continuing education
courses, attended by 338 people in 1992-93. Nurses accounted for 74 percent of these
participants. Nursing staff at the Fayetteville AHEC also took the lead in conducting
a statewide survey and needs assessment that provides some instructive views on the
types of continuing education that nurses are interested in. Staff nurses and hospital
directors of nursing differed in their priorities. The directors ranked most highly the
need for nurse training on:
   �    documentation and record keeping;
   �    motivating others;
   �    communication skills; and
   .    basic assessment.

Staff nurses, on the other hand, expressed the most interest in topics such as:
   �   care of patients with HIV;
   �   legal aspects of practice;
   �   ethical concerns; and
   �   clinical topics.

The two AHEC centers we visited focus their continuing education within disciplines,
rather than on multidisciplinary education.21 The views of one of the AHEC center
directors we spoke with provides an explanation. He told US that “doctors teach



                                         B-4

doctors andnurses teach nurses. Recourses       offered bynursing areopen   to other
disciplines, but doctors rarely go to them.”

TELECOMMUNI         CATIONS

Arkansas AHEC utilizes interactive video at two centers (Fayetteville and El Dorado)
to give registered nurses an opportunity to advance educationally to a bachelors or
masters degree. The UAMS School of Nursing purchased the video equipment with
grant funds from the State Department of Higher Education. 22 This program
electronically links nursing students in the two centers with other students and
instructors at the UAMS School of Nursing in Little Rock. Students receive theory
and research courses directly from Little Rock through interactive video. The local
AHEC center director of nursing education supervises the students’ clinical education.
The BSN completion course enrolls 30 students, and the MSN course enrolls 15.

This system is used for continuing education on a very limited basis. The nursing
school staff cite three primary obstacles to its broader application. First, the grant
used to purchase equipment was provided for nursing education, so that education
naturally takes precedence over other activities. Second, the equipment requires a
dedicated classroom; to use it for activities such as continuing education means that
substantial advance planning and scheduling is needed to avoid conflicts. Third, at this
time the equipment is available in only two AHEC centers, so it would not be
accessible to practitioners elsewhere in the State.

CONCLUSIONS:         The Role of Support Services in Arkansas

AHEC centers in Arkansas operate physician group practices, so support services play
a limited role (with the notable exception of medical library resources which are seen
as important for all local practitioners). Because the AHEC centers employ physicians
directly, they already have preceptors on staf~ the centers do not need to use support
services to attract physicians to teach students.

  �    Medical Library Resources

Medical    library resources clearly are the most important support services provided
through    Arkansas’s AHECS. The AHEC libraries are an important source of overall
medical    information for practitioners throughout Arkansas, both those in the AHEC
practice   and those not affiliated with it.

The Arkansas AHEC program’s medical library system provides widespread access to
practitioners throughout the State to medical research literature. One practitioner we
interviewed explained the significance of this system for practicing physicians, when he
told us, “Sometimes it is good to get away [for continuing education], but what you
really need is answers to questions that come up on a day-to-day basis.” The AHEC
center directors we spoke with cited the availability of medical library resources as an
important attraction recruiting new physicians.


                                          B-5
  �    Continuing Education Courses

Providing continuing education courses for physicians is not a major focus of these

AHEC centers. Physicians indicated that continuing education courses are readily

available elsewhere, either through local meetings (e.g., the local medical society) or at

major conferences out of state. 23 In addition, as a staff model group practice, each

AHEC center can reduce the isolation of the center’s physicians.


There does appear to be a need for continuing education for allied health

professionals. Arkansas AHECS, however, are primarily physician-focused

organizations, Consequently, continuing education for allied health professionals is not

strongly institutionalized as part of the basic mission for this AHEC, meaning that it

could be vulnerable in times of budgetary constraints.


  �    Telecommunications

The Arkansas AHEC program has taken initial steps toward expanding telecommu­
nications through long distance interactive video education for nurses. This initiative
appears to be well supported and liked by those who use it. It holds promise for use
in continuing education programs, particularly for allied health practitioners and
nurses. We were informed by allied health faculty we spoke with, and by nursing
faculty in the AHEC center without interactive video, that they wished it were
available for them. The AHEC should be well positioned to help advance
telecommunications because it has direct access to and involvement with the system
used in nursing education.

Nurses enrolled in the interactive video course in Fayetteville (roughly 200 miles from
Little Rock) told us about two major advantages. First, they are able to continue
living at home, rather than having to move to Little Rock. Second, they are able to
continue their current nursing practice while pursuing a degree, rather than becoming
full-time students.

We discussed this approach with faculty for allied health programs in both Pine Bluff
and Fayetteville. Those at Fayetteville told us that the technology greatly facilitated
education when they had been able to use it. Those at Pine Bluff thought that it
would be very useful to have interactive video, both for initial training of allied health
professionals and for continuing education.

The AHEC physicians, however, were skeptical about its potential for continuing
education. Long distance technology is not used in the Arkansas AHECS for
consultative or diagnostic purposes at this time. However, they are making plans to
establish a telemedicine program in the future. One physician told us that compressed
video would be a waste of time for physicians’ education. He agreed that it might be
useful for consultation--but he, personally, “would rather just pick up the phone and
call someone” he knew.



                                           B-6

                                 FLORIDA

AREA          HEALTH              EDUCATION                        CENTERS


OVERVIEW

Four AHECprograms       operate in Florida. Revisited twoofthese       programs,24
where we met with staff from two centers within each program, as well as providers
affiliated with community and migrant health centers (CHCS), county public health
departments, and practitioners in private practice. It is in these clinical sites that
AHECS provide the bulk of their student training and the substantial share of their
support services. Although there are four different AHEC programs in Florida, from
a statewide basis they may be viewed as a single network. The State of Florida
appropriated $6.5 million for AHEC programs in fiscal year 1994.

Nova Southeastern University AHEC Program, based in North Miami, received its
initial Federal AHEC funding in 1985. This program includes two AHEC centers.
Everglades AHEC Center, based in West Palm Beach, serves ten counties in Southern
Florida. Central Florida AHEC Center, based in Apopka, covers nine counties.25

The University of Florida’s North Florida AHEC Program, based in Gainesville,
received its first Federal AHEC award in 1992. Two North Florida AHEC centers are
fully operational: Suwannee River AHEC Center, based in Alachua, covers a
12 county area in north central Florida, and Big Bend AHEC Center, based in
Tallahassee, covers 14 counties in the Florida Panhandle. Two additional centers are
in the early stages of operation, and one more is in the planning stage.~

MEDICAL     LIBRARY     RESOURCES

  F    Medical Library Resources at Nova Southeastern    University AHEC Program

The focal point of this AHEC’S “library without walls” is a dissemination service for
learning resource materials. The AHEC distributes the tables of contents from about
40 journals to 80 practice sites in which it places students and residents.27 In
addition, it distributes texts and other materials from the AHEC’S clearinghouses on
HIV/AIDS, child abuse, and ethnocultural issues in health care. Nova Southeastern
data show that the library delivered 3,152 information requests in the July 1992-June
1993 fiscal year, and 4,291 from July 1993 to June 1994.

The Nova Southeastern University AHEC Program has provided computers to
12 CHCS and county public health departments where significant student training
takes place. In order to utilize these computers to conduct literature searches, the
AHEC program provides Grateful Med software and on-site training in its use to
preceptors and other staff in those sites.




                                         B-7

  F    Medical Library Resources at the North Florida AHEC Program

North Florida AHEC emphasizes a computerized reference service using CD-ROM
technology through the Florida Health Information Network (FHIN), in the University
of Florida School of Medicine. The FHIN is available to any physician or health
services provider in Northern Florida on a subscription basis at $200 per year. As an
incentive to work with its students, AHEC gives its preceptors a free subscription.
The AHEC provides computer terminals for its permanent teaching sites--those in
which students are regularly placed--so that practitioners can access this service
directly.x In the 15-month period ending in June 1994, the AHEC had interactions
with 173 individuals, 55 percent of whom were medical students.

CONTINUING       EDUCATION        COURSES

These AHECS target their continuing education courses at CHCS and county public

health departments, the settings on which they focus for clinical placements. The

AHECS have used formal needs assessments to identify continuing education needs,

but the staff believe that more useful insight comes from less formal methods, such as

recommendations made in written evaluations of other continuing education

programs. 29 In addition, the statewide association representing community health

centers works with the AHECS to identify multidisciplinary training needs of staff in

those centers.


AHEC staff we spoke with indicated that topics related to ~DS and HIV are of

paramount interest to practitioners. Other topics of interest frequently mentioned

included:

   .   pesticide exposure;

   �    early breast cancer detection;

   �   tuberculosis and other infections diseases;

   .   procedural skills (e.g., joint
 injection and aspiration, or colposcopy training);
   �    identification of domestic abuse;
   �    cultural sensitivity in providing care to members of immigrant and minority
        groups;
   �    training in a second language (primarily Spanish and Creole); and
   �    avoiding staff burn out.

AHEC-sponsored continuing education is important for nurses and allied health
professionals. From 1991 through 1993, almost 11,000 participants attended
continuing education programs sponsored by these 2 AHEC programs. Nine percent
of participants were physicians, 37 percent were nurses and nurse practitioners,
40 percent were allied health professionals, and 15 percent were other health
professionals~”

Data from Nova Southeastern show that 58 percent of continuing education courses
were provided for health care professionals employed in CHCS or county public health
departments in 1992-93. The North Florida AHEC does not maintain data in this


                                            B-8
format; qualitatively, though, during our site visit we met with a number of CHC and
health department physicians and staff in North Florida who noted that the AHEC
had sponsored continuing education courses in their practice sites.

TELECOMMUNI        CATIONS

AHECS’ use of telecommunications in Florida is still in an early stage, with little
telemedicine or long distance education provided. The Florida AHECS joined with
the State Department of Health and Rehabilitative Services (DHRS) in the Spring of
1994 to coordinate a teleconference on current treatment for tuberculosis.

Because of its proximity to the DHRS central office in Tallahassee, Big Bend AHEC
Center took on a prominent role in coordinating conference details. All of the AHEC
centers in Florida took an active role in conducting the conference. The program
utilized a case presentation method, with a pre-conference instructional guide. Prior
to the actual televised program, staff solicited questions from conference registrants by
fax. The speaker reviewed these questions and attempted to address them in his
presentation. The teleconference ran for one and one-half hours. Teleconference
sites included CHCS, county public health departments, nursing homes, and community
colleges. Requirements were a satellite dish ($5,000-$7,000), TV monitor with a
special unit, and a hand held telephone set. The result was a conference that reached
1,080 participants at 77 sites at a delivery cost of about $2 per person.

CONCLUSIONS:       The Role of Support Services in Florida

Support services play an important role in these AHECS’ overall operations. The
AHECS use support services to develop and solidify relationships with the community-
based practitioners who serve as preceptors for AHEC students. These clinicians-­
practicing in community health centers, county health departments, and private
practice--are an important educational resource for the AHECS, because they practice
in the sites in which AHEC students are trained.

The AHECS target their preceptor and training sites for special attention with library
resources and continuing education. By providing support services in these sites,
AHECS are able to help these practitioners maintain their skills. In addition, these
support services provide a way through which AHECS can provide tangible assistance
to those practitioners who form their educational base in the community.

  �    Medical Library Resources

In both AHECS we visited, practitioners told us about the usefulness of these types of
services. One county health officer rated medical library resources as the most useful
service that AHEC provides. The medical director of a community health center told
us that having access to a medical library was critical in her practice. Another
physician said that access to medical library resources is important to her because she
often feels cut off from academic medicine. The medical director of a county public


                                          B-9
health unit challenged all the practitioners associated with the department to use the
tables of contents services, because they “would really be stupid not to use these
resources.” The staff took him up on this challenge, and that one unit now accounts
for 20 percent of the total information requests received by the AHEC.

  F    Continuing Education Courses

We did not formally evaluate continuing education’s impact on practitioner retention;
however, physicians we met with told us of its importance. An AHEC preceptor in
private practice typified the views shared by others when he said that “Once you’re out
in the community, you’re it. This is not the kind of training that you get on grand
rounds at a teaching hospital, but giving the local hospital staff something to keep
current is critical.” Another physician we spoke with went so far as to credit the
availability of AHEC-sponsored continuing education in his rural CHC as a key factor
in attracting two new physicians to the area. From the point of view of the CHCS, the
AHECS fill an important need. The director of a group of CHCS told us that “AHEC
is our training arm. Without AHEC we couldn’t put this training on.”

  �    Telecommunications

Practitioner reactions to telecommunications are not clear cut. According to those
involved with coordinating the TB program, evaluations showed that participants liked
it as a learning mode. As one physician told us, this was a “good example of how to
use technologies at the site. Everyone got to watch it; the course came to us, and we
were too busy to go out of town for it.” But for other practitioners, this technology
has not been completely accepted. Despite the apparent success of the TB televideo
conference, one physician expressed concern about potential problems with the
equipment. She also complained that “even if it all works fine, it still requires a time
commitment and it won’t be as personal” as more traditional programming.

State officials told us that Florida is the only State to have a dedicated network for
public health professions. The DHRS owns this network and plans to utilize it for
additional state-activated “Clinical Hot Topics” series. The four Florida AHECS have
formed a Statewide educational programming committee to address the need for
additional teleconferences. Three additional teleconferences are planned for the
1994-95 fiscal year on topics of domestic violence, and ethnocukural sensitivity.




                                         B-10

                    SOUTH  TEXAS

AREA           HEALTH   EDUCATION                                  CENTER


OVERVIEW

The South Texas AHEC Program (STAHEC), based at The University of Texas

Health Science Center at San Antonio (UTHSCSA), began operation in October 1990.

South Texas is one of three AHEC programs in the State.31 This AHEC program

serves a 48,000 square mile area from San Antonio to the Texas-Mexico border.

During our visit, we met with staff from the STAHEC program office and the Lower

Rio Grande Valley AHEC Center in Weslaco, and with practitioners served by that

AHEC center. This center was the first established in this program and has been in

operation since January 1991.32 Its service area contains a population of about

800,000 people in the 4 southernmost counties of Texas. Three community/ migrant

health centers and one State-designated rural health clinic are located in this area.


MEDICAL     LIBRARY    RESOURCES

In addition to facilitating access to the medical library at UTHSCS~ South Texas
AHEC Program uses a circuit rider librarian to take medical library resources to
practitioners. Based at the AHEC program office in San Antonio, the circuit rider’s
primary clients are a consortium of hospitals and health care providers in the Lower
Rio Grande Valley area served by the AHEC center. Consortium members pay a
membership fee that covers a portion of the cost of the service.33

The librarian spends one week each month visiting the consortium members and other
providers in the Rio Grande Valley. During her circuit, she provides training on how
to access various data bases.w The librarian conducts searches for practitioners,
using a lap tap computer with fax-modem capability. When not riding circuit in the
Valley, she is accessible through a 1-800 telephone number. She gives out her home
telephone number to all of her clients and takes the lap top computer home at night
and on the weekends so that she can conduct emergency literature searches, if needed.

In addition to the circuit rider, AHEC has placed a permanent computer with Grateful
Med software in Brownsville Community Health Center and Valley Baptist Medical
Center. These facilities host primary care residency rotations and student preceptor
programs which the AHEC sponsors.

South Texas AHEC focuses on the circuit rider librarian approach for two primary
reasons. First, it meets the need for information required by practitioners in the
community. Between October 1990 and August 1993, AHEC data show that the
circuit rider system completed 3,425 searches and delivered 12,671 documents. The
AHEC calculates that the value of this on-line searching and document delivery totals
more than $100,000 in direct costs.


                                        B-n
Second, the circuit librarian is a strong marketing tool for the AHEC. Although labor
intensive, this service continually demonstrates AHECS’ presence and services to
practitioners. The circuit riding librarian model reinforces the availability of medical
library resources, as well as the role that AHEC can play in helping practitioners.

CONTINUING      EDUCATION       COURSES

South Texas AHEC provides little continuing education directly. Fiscal year 1992-93
data show that the AHEC provided continuing education for 225 professionals. Allied
health professionals comprised 51 percent of participants, nurses 29 percent, and
physicians 19 percent. Instead of developing a separate continuing education capacity,
the STAHEC program office and the centers support continuing education offered by
the individual health professions schools. Each UTHSCSA professional school-­
medicine, nursing, dentistry, and allied health--as well as UT-Austin’s extension
pharmacy program has its own office of continuing education.

The AHEC centers support the continuing education provided by these schools by
giving information on the needs of community practitioners to these continuing
education offices, based on input from community advisory committees, with support
and assistance from the STAHEC program office. The AHEC centers also coordinate
and publicize continuing education that is available locally, and provide some financial
support for program offerings requested for a local area. The AHEC routinely
conducts instructional development programs for new preceptors or community-based
clinical faculty.

TELECO MMUNICATIONS

In 1993, the AHEC sponsored a month-long telemedicine demonstration project. The
goals of this project were to demonstrate the use of telemedicine and telecommuni­
cations between the UTHSCSA and the AHEC-affiliated Family Practice Residency
Program in McAllen, over 200 miles away. The demonstration included:

  .	   A series of lectures, seminars, and grand rounds on topics such as orthopedics,
       dermatology, and neonatal resuscitation;

  .	   Consultations and case presentations   in obstetrics, pediatric cardiology and
       pediatric neurology; and

  .	   Hands-on demonstration    and use of electronic imaging equipment, microscopes,
       and stethoscopes.

All equipment was donated by private vendors. Educational programs were based at
the Health Science Center. In McAllen, family practice residents and staff physicians,
community physicians, medical students, nurses, and allied health staff participated.
Most lectures were delivered from UTHSCSA, some sessions were interactive, with
presentations from both settings. In addition to the practitioners who attended the


                                         B-12
San Antonio sessions,  participants inMcAllenincluded    88 people for the lectures, 29 in
the consultation sessions, and 14 for the equipment testing.

South Texas AHEC also uses two-way interactive video between the Health Science
centeratSan Antonioand theUniversity    ofTexascampusinBrownsville
    toprovide

nursingcoursesfora BSN-MSN degreeprogram.The programenrolls
       29 students

and provides250 classroom

                         hourspersemester.


The Telecommunications     NetworkofTexas,an existing
    networkhousedintheTexas

DepartmentofEducation,
      also has some experience with providing live audio (via
telephone lines) continuing education for credit for health care providers, along with
visual materials (such as slides) to accompany the audio broadcast.

CONCLUSIONS         The Role of Support Services in South Texas

For theSouthTexasAHEC, supportseficesisone important

                                                    way ofproviding

outreach           services
        and tangible            practitioners,
                          torural                     thoseinvolved

                                            particularly           in

training
       theirstudents.
                    The director
                               ofa communityhealthcenter

                                                        summarizedthis

importancewhen shenoted,“AHEC isimportant toouroverall

                                                      work. Itprovides

residents,      fortraining,
         students         and helpstosupporttheCHC’S efforts.”

                                                              One rural

           we interviewed
practitioner           heresummarizedtheneed forsupportservices
when he

toldus,“Thehardest                   ina rural

                  thingaboutpracticing       arealikeoursisthatyou don’t

havean academiccommunitytoprovidea life

                                       linetonew ideas.”


  �     Medical Library Resources

The medical library resources meet an important need. The AHEC staff and local
practitioners told us that medical library facilities in this area are minimal, even at the
local university campus with a school of nursing. They cited a lack of available books
and journals, as Wdi as difficulty in providing t~ose m~terials to professionals located
at a distance from the library. For many physicians, the librarian offers the only
access to professional journals outside of their own personal libraries.

The AHEC program also faces opportunity to expand the circuit riding library
program as it develops AHEC centers in new geographic areas. This opportunity,
however, presents a challenge to AHEC: How to expand the service to other areas,
given the staffing requirements and cost of meeting the increased demand, and how to
ensure that it this resource is accessible to all practitioners in the area, not just
members of the consortium.

  �     Continuing Education Courses

Additional opportunities exist for continuing education provided by this AHEC. As
we note, AHEC provides little continuing education itself, relying instead on the
programs provided by the individual health professions schools a~ UTHSCSA. In our
interviews in the Lower Rio Grande Valley, practitioners expressed a need for


                                          B-13


    —
additional continuing education focusing on three areas. First, we heard of the need
for multi-disciplinary continuing education, While the continuing education provided
through the health professions schools meets the needs of the professions, it tends to
be isolated within individual disciplines, rather than cutting across them.

Second, practitioners expressed a need for locally-provided continuing education. This
is a particular need for nonphysician and allied health personnel, for whom traveling
to San Antonio or Houston for continuing education may be prohibitively expensive
for them or their employers.

Finally, we heard about a need for continuing education that addresses specific local
problems unique to this area, rather than having to pick from a broader agenda of
health care issues. One nurse expressed this as, “We don’t need any more training
about home health visits, but we do need education on asthma, diabetes, psycho-social
skills, and cultural sensitivity.”

  �    Telecommunications

The South Texas AHEC Program has been actively involved in examining telecommu­
nications’ potential, both for providing nursing education and for continuing education
and telemedicine demonstrations. AHEC staff note that they are committed to
increasing the use of telecommunications for all types of medical providers.35 The
AHEC views telecommunications as a means to circumvent cost- and travel-
restrictions on provider learning. Community practitioners and administrators believe
that telecommunications can fill an important need. The administrator of a
community health center summarized these views when she told us that her local
continuing education committee is “very excited about telemedicine” as a way of
delivering information to local practitioners.

The telecommunications demonstration provided information to practitioners, The
practitioners also identified some problems that need to be overcome if telecommu­
nications are to be an effective method for providing long distance education. On the
positive side, the demonstration evaluators found that practitioners agreed about the
potential for the technology. However, participants in the workshops raised questions
about its current design. They expressed reservations about diagnostic telemedicine,
primarily
 becauseofproblemswiththeequipment?6Inthetelecommunications

demonstration,   itappearsthattechnical   problemswiththeequipment--not
    practitioner

interest--led tothenegative   views.To address  theseproblems,    STAHEC staff
 are

attending   workshopsand aretalking   directly

                                              withequipmentvendors.Accordingto

AHEC staff,    thequality  ofthediagnostic equipmentisimproving,
    and therangeof

available
 equipmentisexpanding.3


South Texas AHEC utilized the knowledge gained by the demonstration to develop a
plan, finance the acquisition of equipment, and implement the South Texas Distance
Learning and TeleHealth Network. Equipment installation began in January 1995,
and the network links ten community clinical training sites with the UTHSCSA
campus.


                                        B-14

                            APPENDIX                   C


                                      ENDNOTES

1. Other Federal efforts include:

 �	    Support for educational institutions that train practitioners. This approach
       includes, the Health Education and Training Centers Program, Rural
       Interdisciplinary Training Grants, and Nursing Special Project Grants;

  �	   Direct personnel placement strategies, such as the National Health Service
       Corps (NHSC);

  .	   Reimbursement approaches, such as the Health Professional Shortage Area
       bonus payment program; and

  .	   Direct delivery programs, such as Rural Health Centers and Community/
       Migrant Health Centers programs.


2. P.L. 102-408 established a model State supported program. This program requires
a 50 percent hard dollar match from State funds in order to obtain Federal funding.

3.	 U.S. General Accounting Office, Health Professions Education: Role of Title
VII/VIII Rrograms in Improving Access to Care is Unclear, .luly 1994, p. 4.

4. U.S. Congress, Office of Technology Assessment, Health Care in Rural America,
OTA-H-434 (Washington, DC: U.S. Government Printing Office, September 1990),
p. 318.

5. Ibid.

6. Charles O. Cranford, “Continuing Professional Educational Support Systems,” The
National MIEC  Bulletin, IX (Summer 1991) 1:1-2. Emphasis in original.

7. The offerings cover dozens of different subject areas, and it is not possible to
identify the exact number of courses given on different clinical topics. Some
applications do not contain course specific information. Other applications list course
titles differently or aggregate courses according to different criteria.

8. One AHEC we visited sponsored a weekend-long retreat for rural preceptors, and
plans to repeat it annually or more often. Another AHEC brings its preceptors
together three times each year at the health sciences center. These sessions, taught
for the most part by other preceptors, include courses on teaching, evaluating students,
and handling problem situations.



                                          c-1

9. The AHCPRguidelines       issued to date are: Acute Pain Marzagement (issuedin
March, 1992); Urinaiy Incontinence in Adults (March, 1992) ;Pressure Ulcers in Adults
(May, 1992); Cataracts in Adults (February, 1993); Depression in Primary Care (April,
1993) ;Sickle C’ellDisease (April, 1993) ;EarlylWVInfection( January, 1994) ;Benign
Prostatic Hyperplasia (February, 1994); Management of Cancer Pain (March, 1994);
Unstable Angina (March, 1994); Heart Failure (June, 1994); and Otitis Media with
E~ion     (July, 1994).

10. University of Arkansas for Medical Sciences Area Health Education Centers,
Demonstration of Dissemination of Medical Technolog Using Area Health Education
Centers, Contract No. RFP HRSA 240-BHPr-24(0)MAD, October 1990 to January
1993, Executive Summary, p. 8. These guidelines were not developed by AHCPR, but
were the product of another PHS effort, a consensus development conference of the
National Heart, Lung and Blood Institute.

11. In two other States, the AHEC directors told us that they were cooperating with
efforts of the State medical society to provide information to practitioners about
managed care and health care reform.

12. These programs are designed for associate degree nurses or diploma nurses to
earn bachelors’ degrees or, in some cases for bachelors’ level nurses to receive
masters’ preparation.

13. See, for example, John E. Wennberg, J.L. Freeman, R.M. Shelton, and T.A.
Bubolz, “Hospital Use and Mortality among Medicare Beneficiaries in Boston and
New Haven,” New England Journal of Medicine 321 (October 26, 1989)17: 1168-1173.

14. The Office of Technology Assessment has noted, for example, that “rural areas
are increasingly competing with urban practices (such as those associated with health
maintenance organizations) for primary care physicians.” OTA, p. 18.

15. See, for example, Washington Statewide Office of Rural Health, Implementing
Health Care Reform:   Setting a Course for Rural Washington, Workshop Summary,
November 9-10, 1993, Seattle.

16. One AHEC director in a rural State summarized this view when he noted that,
“Our physicians don’t even know how to spell HMO.”

17. See, for example, “Peering into 2010: A Sulvey of the Future of Medicine,” Z7ze
Economist, March 19, 1994.

18. The ORHP sponsored a “Rural Telemedicine         Workshop” in November 1993 that
brought together Federal and State officials, researchers, and members of the business
community to address issues related to telemedicine. See, “Reaching Rural: Rural
Health Travels the Telecommunications Highway,” Office of Rural Health, 1994, for a
summary of conference proceedings. A report prepared for ORHP also addresses the
potential of telecommunications in detail; see John P. Witherspoon, Sally M.


                                         c-2

Johnstone, and Cathy J. Wasem, Rural TeleHealth: Telemedicine, Distance Education
and Informatic,s for Rural Health, Western Cooperative for Educational
Telecommunications, Boulder, CO, September 1993.

19. Other centers operate at Jonesboro, Fort Smith, El Dorado, and Texarkana.       Only
Pulaski County (Little Rock) is not covered by an AHEC center.

Pine Bluff AHEC is located on the grounds of the Jefferson County Regional Medical
Center. Professional fees provide 58 percent of their $4.9 million budget, 36 percent
comes from State appropriations, and the balance from community support, such as
the local hospital. These funds support the AHEC, one community health center, and
a library/learning resource center.

Northwest AHEC, based in Fayetteville, is located about two miles from the
Wilmington Regional Medical Center, where hospital-based training of residents takes
place. Northwest AHEC operates on an annual budget of $3.2 million--about
38 percent from professional fees, 38 percent from million in state money, 10 percent
from grants for special projects, and 15 percent from local hospital support.

20. The access libraries are located in Fayetteville and Jonesboro. Being an NLM-
access library means that they provide information, training, and demonstrations on
Grateful Med to users who are not affiliated with AHEC, as well as to those who are.
The data on users is a duplicated count.

21. AHEC staff told us, however, that at the El Dorado AHEC center, there is a
much greater focus on multidisciplinary continuing education.

22. The equipment costs about $100,000 per unit.

23. One physician told us that “More CE goes on in the hallways of the hospitals than
in all the local courses combined.”

24. The other programs are located at the University of Miami Medical School (which
has two AHEC centers) and the University of South Florida School of Medicine in
Tampa, a new program with two AHEC centers in the planning stage.

25. Southeastern College of Osteopathic Medicine, the original home of this AHEC,
merged with Nova University in January, 1994 to form Nova Southeastern University.
The university includes several off-site campuses that utilize electronic learning
facilities and already operates a technology center that includes broadcast studios with
interactive compressed two-way video.

Five of the 19 counties in the Nova Southeastern University AHEC Program area
have been designated as county-wide Health Professionals Shortage Areas (HPSAS),
and the remaining 14 have partial-county HPSA status. Twenty-one CHCS operate in
15 of the 19 counties.




                                          c-3

26. In the North Florida AHEC, 33 of the 37 counties are either wholly or partially
designated HPSAs. Four counties have nohospital, andsixcounties have only
one hospital with 60 bedsorfewer.Four CHC organizations   operateinthisarea,

many ofthem withmultiple          clinics
                           satellite    inrural
 communities.


27. The AHEC     programoffice  atNova Southeastern   maintains   thejournals
and

photocopies  individualarticles
                              fordistribution, whilethecentral    Florida
 AHEC center

librarian coordinatesthedistribution.A practitioner
 who wouldlikea copyofan

articlefrom anyofthesejournals   writes hisor hername and address
     on the

photocopied  contents pageand returns  ittothelibrary  coordinator.
  A Nova
Southeastern student photocopies the article and mails it to the requestor.

28. While the practitioners have the option of contacting the university library
directly, according to AHEC staff few do so. The localAHEC centerk viewedasa

friendly  intermediary. According toAHEC staff, mostpractitioners         to

                                                                gainaccess

FHIN througha phone call     tothelocal AHEC center, where a staff

                                                                 member is

trained  tonarrowthesearchtoidenti~              thatwouldbe ofmost usetothe

                                       references

practitioner.  The AHEC centerstaff  thenphonestheAHEC medicallibrarian,
 who

performstheactual     searchand faxesthereference and abstracts

                                                              tothepractitioner.


29. One of the early activities of North Florida AHEC was contracting with a local
entity (e.g., the board    of commissioners or countyhospital)   in each county to conduct a
large scale survey on     how AHEC could meet local needs, including continuing
education. The staff      reported to us that while this “was an interesting exercise,” they
found it most helpful     to meet with locally developed groups of professionals to define
needs.

30. This distribution also holds true for the other AHECS in the state. On a
statewide basis, 8 percent on participants in AHEC-sponsored CE were physicians,
25 percent were nurses and nurse practitioners, and 67 percent attended
multidisciplinary courses (1993). Virginia Fowkes, “The Florida Area Health
Education Center Program, July 1992 through June 1993: Report to the Legislature.”

31. The other Texas AHEC programs are based at Texas Tech School of Medicine in
Lubbock and the University of Texas Medical Branch in Galveston.

32. Four other centers have opened more recently in Eagle Pass, Laredo, Del Rio,
and Corpus Christi.

33. The consortium consists of 10 hospitals, 2 State mental health/mental retardation
clinics, an affiliated family practice residency clinic, and a CHC. The South Texas
AHEC Program is extending the circuit riding library concept to other areas of South
Texas as new centers come on line.

The current subscription rate for a hospital is $1,000 per 100 beds. In 1993 the
circuit-rider librarian program cost about $58,000 for staff, travel, subscriptions, and



                                             c-4

fax services. South Texas AHEC covered about two-thirds of the cost, and consortium
fees about one-third.

34.The librarian provides one-on-one instruction for anyone who wants to learn how
to conduct his or her own searches, but she feels, at this time, that physicians have
neither the time nor the inclination to conduct their own searches, they expect
someone else to do so. She told us, “You can’t just throw equipment at them. You
need to establish a human connection for it to work.”

35. For example, STAHEC program staff noted that they have written and submitted
various proposals to State and Federal funding sources to further the use of
telecommunications.

36.The demonstration     evaluators note, “The most anticipated equipment turned out
to be, perhaps the biggest disappointment.” They cited problems with static and
interference in using electronic stethoscopes, and insufficient light for the electronic
otoscope. See, The University of Texas Health Science Center at San Antonio,
“Telemedicine Demonstration Evaluation,” pp. 6-7.

37. One vendor told the AHEC staff that it had made changes to equipment based on
the evaluation from this demonstration.




                                           c-5

